APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion and Concurring Opinion in
the United States Court of Appeals for
the Sixth Circuit
(October 7, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Opinion, Order, and Judgment in the
United States District Court, Western
District of Michigan, Southern
Division
(November 5, 2018). . . . . . . . . . . App. 54
Appendix C Verdict Form in the United States
District Court, Western District of
Michigan, Southern Division
(April 12, 2018) . . . . . . . . . . . . . . App. 82
Appendix D Opinion and Order in the United
States District Court, Western District
of Michigan, Southern Division
(March 26, 2018) . . . . . . . . . . . . . App. 88
Appendix E Opinion and Order in the United
States District Court, Western District
of Michigan, Southern Division
(August 18, 2017) . . . . . . . . . . . App. 107
Appendix F Final Judgment Including Permanent
Injunction in the United States
District Court, Western District of
Michigan, Southern Division
(December 22, 2003) . . . . . . . . . App. 123

ii
Appendix G Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Sixth Circuit
(November 21, 2019) . . . . . . . . . App. 128

App. 1

APPENDIX A
RECOMMENDED FOR FULL-TEXT PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 19a0257p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Nos. 18-2397/2398
[Filed October 7, 2019]
_________________________________________
EVOQUA WATER TECHNOLOGIES, LLC,
)
Plaintiff-Appellant/Cross-Appellee,
)
)
v.
)
)
M.W. WATERMARK, LLC;
)
MICHAEL GETHIN, Individually,
)
Defendants-Appellees/Cross-Appellants. )
_________________________________________ )
Appeal from the United States District Court
for the Western District of Michigan at Grand Rapids.
No. 1:16-cv-00014—Robert J. Jonker, District Judge.
Argued: June 27, 2019
Decided and Filed: October 7, 2019
Before: WHITE, BUSH, and LARSEN,
Circuit Judges.

App. 2
_________________
COUNSEL
ARGUED: Craig R. Smith, LANDO & ANASTASI,
LLP, Cambridge, Massachusetts, for Appellant/CrossAppellee. G. Thomas Williams, MCGARRY BAIR PC,
Grand Rapids, Michigan, for Appellees/CrossAppellants. ON BRIEF: Craig R. Smith, Eric P.
Carnevale, LANDO & ANASTASI, LLP, Cambridge,
Massachusetts, for Appellant/Cross-Appellee. G.
Thomas Williams, MCGARRY BAIR PC, Grand Rapids,
Michigan, for Appellees/Cross- Appellants.
WHITE, J., delivered the opinion of the court in
which BUSH and LARSEN, JJ., joined. BUSH, J.
(pp. 19–35), delivered a separate concurring opinion.
_________________
OPINION
_________________
HELENE N. WHITE, Circuit Judge. In 2016,
Plaintiff Evoqua Water Technologies, LC (“Evoqua”)
filed this action against Defendants M.W. Watermark,
LLC (“Watermark” and Michael Gethin, asserting
copyright, trademark, and false-advertising claims and
seeking to enforce a 2003 consent judgment obtained by
Evoqua’s alleged predecessor against Watermark and
Gethin. The district court dismissed Evoqua’s claim
that Watermark and Gethin were in contempt for
violating the consent judgment, holding that the
consent judgment was not assignable and therefore
Evoqua lacked standing to enforce it. The district court
also granted Watermark and Gethin summary

App. 3
judgment on Evoqua’s copyright claim after concluding
that the agreement selling assets to Evoqua
unambiguously did not transfer copyrights. A jury later
returned a verdict for Watermark and Gethin on
Evoqua’s false-advertising claim and for Evoqua on its
trademark-infringement claim against Watermark but
found that Gethin was not personally liable. Following
trial, the district court denied Watermark’s and
Gethin’s requests for attorney’s fees on Evoqua’s
copyright and false-advertising claims. We conclude
that the consent judgment is assignable, that the
agreement transferring assets to Evoqua is ambiguous
regarding copyrights, and that the district court did not
abuse its discretion in declining to award Watermark
and Gethin attorney’s fees on the false-advertising
claim. Accordingly, we VACATE the district court’s
dismissal of Evoqua’s claim seeking to hold defendants
in contempt of the consent judgment; VACATE the
district court’s grant of summary judgment on the
copyright claim; AFFIRM the district court’s denial of
defendants’ request for attorney’s fees on the falseadvertising claim; and REMAND for further
proceedings.
I. BACKGROUND
A. The Parties
Evoqua and Watermark manufacture and sell
equipment, such as sludge dryers and filter presses,
that removes water from industrial waste. Both
companies also sell replacement parts for used dewatering equipment originally manufactured by them
or by other companies.

App. 4
Evoqua’s business can be traced back to a
corporation called JWI, Inc. JWI was incorporated in
the late 1970s and was acquired by U.S. Filter
Corporation in 1997 to form a business called U.S.
Filter/JWI Inc. (“U.S. Filter/JWI”). In 2006, U.S.
Filter/JWI merged into Siemens Water Technologies
Corp. and dissolved. In 2011, Siemens Water
Technologies Corp. merged into Siemens Water
Technologies Holding Corp., which then merged into
Siemens Industry, Inc. (“Siemens”). On March 28,
2013, Siemens sold its water technologies business to
Siemens Water Technologies LLC (“SWT”). SWT
changed its name to Evoqua Water Technologies LLC
in 2014.
M.W. Watermark LLC was formerly named J-Parts
LLC. J-Parts was founded by Gethin in 2003 after he
left his position at U.S. Filter/JWI. J-Parts initially
sold only replacement parts for filter presses
manufactured by other companies.
B. 2003 Action and Consent Judgment
Shortly after Gethin formed J-Parts LLC, U.S.
Filter/JWI filed an action against Gethin and J-Parts,
LLC in Gethin I (Case No. 03-00127) in the Western
District of Michigan for false designation of origin,
trademark dilution, trademark infringement, unfair
competition, unjust enrichment, misappropriation of
trade secrets, breach of fiduciary duties, breach of
contract, and conversion. U.S. Filter/JWI alleged,
among other things, that Gethin had downloaded a
large quantity of U.S. Filter/JWI’s proprietary and
trade-secret information before leaving his position and
that the defendants were infringing on its J-PRESS®

App. 5
(the brand for its filter presses) and J-MATE ® (the
brand for its sludge dryers) trademarks by using the
“J-Parts” name.
The parties settled the case and reached a final
settlement agreement. As part of the settlement
agreement, the parties agreed to stipulate to the entry
of a final judgment, and the district court entered the
“Final Judgment Including Permanent Injunction.”1
(R. 1-7.) The injunction permanently enjoined “S.W.
Watermark LLC, and Michael Gethin and its, his or
their principals, agents, servants, employees,
attorneys, successors and assigns” from using U.S.
Filter/JWI’s trademarks and from “using, disclosing, or
disseminating any” of U.S. Filter/JWI’s proprietary
information. (Id. at PID 358.)
C. Sale to SWT
The business unit comprising U.S. Filter/JWI’s
business was sold to SWT pursuant to a Carve-Out
Agreement between Siemens and SWT. Under the
Carve-Out Agreement, SWT acquired “all Seller’s books
and records, files and other documents and data
(including written and electronic training materials
utilized to train the employees of the [watertechnologies unit], including those related to regulatory
and compliance matters), including all purchase and
sold ledgers, purchase and sales day books and
purchase and sales invoices.” (R. 48-1, PID 780.)

1

The “Final Judgment Including Permanent Injunction” will
hereinafter be referred to as the “Consent Judgment” or
“Permanent Injunction.”

App. 6
SWT also acquired the business unit’s “Know-how,”
defined as:
all information and data (irrespective as to
whether such information and data is available
by way of documentation, orally or in electronic
format and irrespective as to whether they are
protected by copyrights or not), including
business and trade secrets, technical and
business information and data, inventions,
experience and expertise, all to the extent that
such information and data are not Software . . .
and/or not a Patent . . . .
(Id. at PID 783.)
SWT further acquired the business unit’s rights and
obligations under its contracts, its trademarks, and its
interest in litigation.
D. Siemens/SWT’s
Market
Watermark’s Entrance

Exit

and

Before selling the water-technologies unit to SWT in
2013, Siemens had prepared a multi-year plan to
discontinue certain product lines, including J-MATE®
sludge dryers. Following the sale, in early 2014,
Evoqua notified its sales representatives that it was
discontinuing the J-MATE® product line. In response
to Evoqua’s planned exit, Watermark decided to enter
the sludge-dryer market. On March 23, 2014,
Watermark announced that it was releasing a sludge
dryer product called “DryMate.”

App. 7
E. Evoqua’s Re-entrance into the SludgeDryer Market
On July 9, 2015, Evoqua began plans to reintroduce
the J-MATE® sludge dryer to the market. Around that
same time, Evoqua’s in-house counsel wrote to
Watermark regarding, among other things, Evoqua’s
concerns that Watermark was violating the Consent
Judgment, improperly using Evoqua’s trademarks, and
falsely advertising that it provided “OEM Parts” for a
variety of manufacturers, including JWI.
II. PROCEDURAL HISTORY
A. Evoqua’s Claims
On January 8, 2016, Evoqua filed this action
against M.W. Watermark, LLC, Watermark’s President
Gethin, and current and former employees of
Watermark. Evoqua alleged that Watermark and its
employees violated the Consent Judgment by using
Evoqua’s proprietary information and infringing on its
trademarks. Evoqua further alleged that Watermark
infringed on its copyrights by adopting Evoqua’s
copyrighted brochures and presentations for its own
use. Evoqua also asserted that Watermark
impermissibly used its J-MATE® trademark on its
website and adopted a confusingly similar name of
“DryMate” for its own product. Evoqua finally alleged
that Watermark falsely advertised itself as an original
equipment manufacturer for Evoqua’s products.
B. The District Court’s Contempt Order
Evoqua filed a motion for sanctions and/or an order
holding Watermark and Gethin in contempt of court for

App. 8
allegedly violating the Permanent Injunction. On
September 12, 2016, the district court granted that
motion and held Gethin and Watermark in contempt
for violating the Permanent Injunction. The court
found that Watermark violated the injunction by
(1) using Evoqua’s proprietary information and
(2) using Evoqua’s trademarks on its website. The
district court ordered Watermark and Gethin to pay
sanctions and requested briefing on the amount.
However, before the award was issued, the case was
reassigned to another judge.
C. The District Court’s Order Vacating the
Contempt Order and Ruling that Evoqua
Lacks Standing
On April 7, 2017, Watermark and Gethin moved for
an order dissolving or modifying the Permanent
Injunction, arguing that the Permanent Injunction’s
requirements had either been satisfied or had become
unworkable. Noting that the parties disputed whether
Evoqua was a successor-in-interest, the district court
entered an order declining to rule on the motion until
resolving that issue and asked for briefing.
At the hearing on Watermark’s and Gethin’s motion
for relief from the permanent injunction and on the
successor-in-interest issue, the district court raised the
question whether the Permanent Injunction could be
enforced by successors to U.S. Filter/JWI and asked for
briefing. After the parties briefed the question, the
district court issued an opinion and order vacating the
contempt order and dismissing Evoqua’s claim for
contempt. The district court held that Evoqua did not
have standing to seek enforcement of the Permanent

App. 9
Injunction because “[t]he consent judgment in this case
does not provide for enforcement by an assignee of U.S.
Filter.” (R. 154, PID 6976.)
D. The District Court’s Grant of Summary
Judgment to Defendants on Evoqua’s
Copyright Claim
On October 23, 2017, Watermark and Gethin moved
for summary judgment on Evoqua’s three remaining
claims: trademark infringement, false advertising, and
copyright infringement. The district court granted
Watermark’s and Gethin’s motion for summary
judgment on the copyright-infringement claim on the
basis that the Carve-Out Agreement between Siemens
and SWT/Evoqua unambiguously did not transfer
copyrights to SWT/Evoqua. The district court rejected
Evoqua’s argument that the agreement’s transfer of
“Know-how” transferred copyrights.
E. Jury Verdict in Favor of Watermark and
Gethin on the False-Advertising Claim and
for Evoqua on the Trademark Claim
Evoqua’s remaining claims for trademark
infringement and false advertising were tried before a
jury. The jury returned a verdict for Watermark and
Gethin on the false-advertising claim and for Evoqua
on its trademark-infringement claim, but awarded $0
in damages, found no willful infringement, and found
that Gethin was not personally liable.
After trial, Watermark and Gethin filed a motion for
attorney’s fees, requesting attorney’s fees as the
prevailing party on the copyright-infringement claim
and attorney’s fees on the false-advertising claim

App. 10
because Evoqua’s conduct with respect to that claim
was exceptional. The district court denied both
requests. The district court declined to award
attorney’s fees for false advertising under the Lanham
Act, finding that the parties presented conflicting
evidence about the meaning of “OEM [original
equipment manufacturer] parts” and that Evoqua
pursued the claim in good faith. (R. 274, PID 10306
(quoting 15 U.S.C. § 1117(a)).)
Evoqua appeals (1) the district court’s order
vacating the contempt order and dismissing Evoqua’s
contempt claim, and (2) the district court’s grant of
summary judgment to Watermark and Gethin on the
copyright claim. Watermark and Gethin appeal the
district court’s denial of their requests for attorney’s
fees on the copyright and false-advertising claims.
III. THE ASSIGNABILITY OF
THE CONSENT JUDGMENT
A. Standard of Review and Legal Standard
“A district court’s interpretation of a consent decree
or judgment is a matter of law subject to de novo
review, and the underlying findings of fact are
reviewed for clear error.” Sault Ste. Marie Tribe of
Chippewa Indians v. Engler, 146 F.3d 367, 371 (6th
Cir. 1998). This Court reviews a district court’s decision
on standing de novo. See United States v. Real Prop.,
All Furnishings Known as Bridwell’s Grocery, 195 F.3d
819, 821 (6th Cir. 1999).
“A consent decree has attributes of both a contract
and of a judicial act.” Williams v. Vukovich, 720 F.2d
909, 920 (6th Cir. 1983). “Consent decrees are entered

App. 11
into by parties to a case after careful negotiation has
produced agreement on their precise terms.” United
States v. Armour & Co., 402 U.S. 673, 681 (1971).
“[T]he scope of a consent decree must be discerned
within its four corners, and not by reference to what
might satisfy the purposes of one of the parties to it.”
Id. at 682. The consent decree is a judicial act because
it “places the power and prestige of the court behind
the compromise struck by the parties.” Williams, 720
F.2d at 920. A court must “protect the integrity of the
decree with its contempt powers.” Id.
A consent decree “is not enforceable directly or in
collateral proceedings by those who are not parties to
it.” Blue Chips Stamps v. Manor Drug Stores, 421 U.S.
723, 750 (1975). “[E]ven intended third-party
beneficiaries of a consent decree lack standing to
enforce its terms.” Aiken v. City of Memphis, 37 F.3d
1155, 1168 (6th Cir. 1994).
In the absence of controlling federal law,
contractual interpretation of the Consent Judgment is
governed by Michigan law. See Sault St. Marie, 146
F.3d at 372. Under Michigan aw, “[t]he primary goal in
the construction or interpretation of any contract is to
honor the intent of the parties.” Rasheed v. Chrysler
Corp., 517 N.W.2d 19, 29 n.28 (Mich. 1994). A court
“must look for the intent of the parties in the words
used in the instrument.” Mich. Chandelier Co. v.
Morse, 297 N.W. 64, 67 (Mich. 1941).
Of particular relevance here, the Supreme Court
addressed the scope of a consent decree in Armour.
There, Greyhound Corporation sought to acquire the
majority of stock in Armour & Co. The government had

App. 12
previously entered into a consent decree with Armour,
barring it from “dealing directly or indirectly in certain
specified commodities.” Armour, 402 U.S. at 673-74.
The government sought to enforce the consent decree
against Greyhound, arguing Greyhound engaged in
business that would violate the decree. Id. at 677. The
Court reasoned that the consent-decree prohibitions
ran “only against the named stockholders [of Armour]
and not against their successors and assigns.” Id. at
680. Noting that a “‘successors and assigns’ clause”
could have made the Government’s argument more
persuasive and that the consent judgment explicitly
bound Armour’s successors and assigns in other
respects, the Supreme Court held that the consent
decree did not bar Armour’s successors from dealing in
the specified commodities. Id. at 683.
B. The Consent Judgment is Assignable.
Under Michigan contract law, “rights can be
assigned unless the assignment is clearly restricted.”
Jawad A. Shah, M.D., PC v. State Farm Mut. Auto. Ins.
Co., 920 N.W.2d 148, 158 (Mich. Ct. App. 2018)
(internal quotation marks omitted). The Consent
Decree is silent on the question of assignability—either
allowing it nor barring it. Due to the absence of a “clear
restrict[ion],” the Consent Decree was assignable to
Evoqua.
Relying on Thatcher v. Kohl’s Department Stores,
Inc., 397 F.3d 1370, 1372 (Fed. Cir. 2005), the district
court came to the opposite conclusion. In Thatcher, a
consent decree enjoined Kohl’s Department Stores, and
its successors-in-interest, from infringing on Mark
Thatcher’s patent rights. 397 F.3d at 1372. The consent

App. 13
decree did not expressly extend the right of
enforcement to anyone other than Mark Thatcher. Id.
Thatcher sold his patent rights to a third party,
Deckers Outdoor Corporation, and Deckers later tried
to enforce the consent judgment against Kohls. Id. at
1372-73. Relying on the “underlying policy” of Armour
and its interpretation of “the contract as a whole,” the
court rejected Decker’s argument that the absence of
an anti-assignment clause meant that the consent
judgment was freely assignable. Id. at 1374. Analyzing
Armour, Thatcher (1) noted that Armour “promotes the
underlying policy that consent judgments must be
construed in a manner that preserves the position for
which the parties bargained” and (2) stated that
“Armour makes clear that . . . [consent judgments] are
fundamentally different from contracts in not only
reflecting an agreement on terms but also a resolution
and compromise of contested legal positions in matters
that are the subject of litigation.” Id. In light of its
interpretation of Armour, the court found the consent
decree’s silence on extending the right of enforcement
to third parties was “the functional equivalent of the
parties’s express intent to exclude language of
assignment.” Id. at 1375. The district court found this
case similar to Thatcher, and interpreted the absence
of any reference to U.S. Filter/JWI’s successors and
assigns, coupled with the language binding
Watermark’s successors and assigns, as preventing
assignment of the Consent Judgment.
We reject this reasoning. The Consent Decree’s
mere silence on the question of assignability does not
evince an intent to prohibit assignment. Michigan law
allows for the assignment of a contract unless clearly

App. 14
restricted. Shah, M.D., PC, 920 N.W.2d at 158.
Further, that the Consent Judgment explicitly binds
Watermark’s successors and assigns but does not
address U.S. Filter/JWI’s successors and assigns makes
sense in light of the fact that the Consent Judgment
addresses only Watermark’s future actions and
obligations—that it may not infringe on certain
trademarks or use U.S. Filter/JWI’s proprietary
information—and does not address U.S. Filter/JWI’s.
Thatcher had a much stronger basis for concluding that
the consent judgment could not be assigned. The
consent judgment there explicitly provided Thatcher
the right to enforce the consent judgment without
providing his assigns that right. See Thatcher, 397 F.3d
at 1373 (“No one other than Thatcher was expressly
given the right to proceed with a contempt action to
enforce the judgment under the terms of the consent
judgment.”). Here, the Consent Judgment is silent on
enforcement.
Moreover, we do not read Armour to require explicit
language allowing for assignment. Armour’s statement
that the interpretation of a consent decree must
preserve the parties’ bargained-for terms does not
suggest that an assignment clause is needed. Armour’s
statement simply mirrors the general contractinterpretation command to “honor the intent of the
parties,” Rasheed 517 N.W.2d at 29 n.28, by looking to
“the words used in the instrument,” Mich. Chandelier
Co., 297 N.W. at 67. Nor does Armour suggest that the
judicial nature of the Consent Judgment requires an
explicit assignment clause in this circumstance.
Armour simply noted that a “successors and assigns”
clause would have made the government’s argument

App. 15
for successor liability more persuasive. The Armour
Court also relied on the fact that the consent judgment
elsewhere had bound Armour’s successors and assigns,
which is not the case here.
Because the Consent Judgment does not contain an
anti-assignment clause or some other clear prohibition
on assignment, the Consent Judgment could be
assigned. The district court erred by concluding to the
contrary.
Watermark and Gethin raised other issues before
the district court, including whether the Consent
Judgment was actually assigned to Evoqua. Because
the district court addressed only the assignability of
the Consent Judgment, we vacate the dismissal of
Count I and remand to allow the district court to
address the arguments in the first instance.
IV. EVOQUA’S OWNERSHIP
OF THE COPYRIGHTS
A. Standard of Review and Legal Standard
We review the district court’s decision granting
summary judgment de novo. See Johnson v. Memphis
Light Gas & Water Div., 777 F.3d 838, 842 (6th Cir.
2015). Summary judgment is appropriate if “the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a). “In
reviewing the district court’s decision to grant
summary judgment, we must view all evidence in the
light most favorable to the nonmoving party.”
Cincinnati Ins. Co. v. Zen Design Grp., Ltd., 329 F.3d
546, 552 (6th Cir. 2003) (citation omitted).

App. 16
“To succeed in a copyright infringement action, a
plaintiff must establish that he or she owns the
copyrighted creation, and that the defendant copied it.”
Kohus v. Mariol, 328 F.3d 848, 853 (6th Cir. 2003)
(citation omitted). The Copyright Act provides that “the
ownership of a copyright may be transferred in whole
or in part by any means of conveyance or by operation
of law.” 17 U.S.C. § 201(d)(1). However, the assignment
of a copyright must be made in writing. 17 U.S.C.
§ 204(a). “[S]o long as the parties’ intent is clear, a
transfer of copyright need not include any particular
language.” Roger Miller Music, Inc. v. Sony/ATV
Publ’g, LLC, 477 F.3d 383, 391 (6th Cir. 2007) (internal
quotation marks omitted).
Under the choice-of-law provision in the Carve-Out
Agreement, Delaware law governs interpretation of the
agreement. “[W]hether a contract is unambiguous is a
question of law.” Sunline Commercial Carriers, Inc. v.
CITGO Petroleum Corp., 206 A.3d 836, 847 n.68 (Del.
2019).
“Unless there is ambiguity, Delaware courts
interpret contract terms according to their plain,
ordinary meaning.” Alta Berkeley VI C.V. v. Omneon,
Inc., 41 A.3d 381, 385 (Del. 2012). “[A]n ambiguity
exists when the provisions in controversy are fairly
susceptible of different interpretations or may have two
or more different meanings.” GMG Capital Invs., LLC
v. Athenian Venture Partners I, L.P., 36 A.3d 776, 780
(Del. 2012) (alterations and internal quotation marks
omitted). “Where a contract is ambiguous, the
interpreting court must look beyond the language of

App. 17
the contract to ascertain the parties’ intentions.” Id.
(internal quotation marks omitted).
B. The Carve-Out Agreement is Ambiguous.
The district court concluded that the Carve-Out
Agreement unambiguously did not transfer any
copyrights to SWT/Evoqua, and held that Evoqua did not
establish actual ownership of the copyrights. We disagree.
Section 1.1 of the agreement provides that Siemens
“sells and transfers . . . all of [Siemens’] right, title
and/or interest . . . in, and to, all assets . . . exclusively
pertaining to the [water-technology business].” (R. 48-1,
PID 779.) Section 1.1 expressly excludes from this
transfer “[intellectual property (IP)] . . . , trademarks
and their applications, domains and any other
intellectual property rights.”(Id.)
Section 2 of the agreement sells and assigns IP.
Evoqua contends that Section 2.2 addressing the sale
of “Know-how” transferred copyrights to it. Section 2.2
provides:
Sale and Assignment of Know-how: . . . . Seller
hereby sells and assigns to Purchaser all
information and data (irrespective as to whether
such information and data is available by way of
documentation, orally or in electronic format
and irrespective as to whether they are
protected by copyrights or not), including
business and trade secrets, technical and
business information and data, inventions,
experience and expertise, all to the extent that
such information and data are not Software (as
defined in Section 2.3 below) and/or not a Patent

App. 18
(collectively herein “Know-how” which (i) is
exclusively used by the Business in the Business
Field on the Effective Date, and (ii) which Seller
has the exclusive authority to dispose of on the
Effective Date (herein “Transferred Knowhow”. . . . The Parties agree that the
documentation in which the Transferred Knowhow is embodied is already available in the
Business and a separate handover of such
documentation is therefore not necessary.
Should Purchaser within twenty-four
(24) months after the Effective Date and on a
case-by-case basis nevertheless need a copy of a
part of the Transferred Know-how for the
operation of the Business, Seller shall, upon
written request of Purchaser, provide Purchaser
with such copy to the extent available at Seller.
(Id. at PID 783-84.)
Section 2.2 of the Carve-Out Agreement is fairly
susceptible of two different interpretations and
therefore ambiguous. The plain meaning of “all
information and data” is fairly broad and could
encompass a wide variety of assets, including
copyrights. Further, “information and data” lacks a
qualifier or limiter, thus is susceptible to the
interpretation that any copyrights on the information
and data are also included. The word “assign” could be
construed broadly. The Carve-Out Agreement was
signed in 2013. The Ninth Edition of Black’s Law
Dictionary (2009) defines assign as “[t]o convey; to
transfer rights or property.” Assign, Black’s Law
Dictionary 135 (9th ed. 2009). The Tenth Edition is

App. 19
more specific, defining assign as “[t]o convey in full; to
transfer (rights or property).” Assign, Black’s Law
Dictionary 142 (10th ed. 2014) (emphasis added). These
definitions suggest that all rights encompassed in or
underlying the information and data were also
transferred. Cf. SCO Grp., Inc. v. Novell, Inc., 578 F.3d
1201, 1213 (10th Cir. 2009) ([“W]hen a party acquires
‘[a]ll rights and ownership’ in a set of items, as was the
case here, courts have generally found such language
sufficient to satisfy Section 204(a) in the absence of
language excepting copyrights or other special
circumstances.” (collecting cases)).
Further, a reasonable interpretation of the
provision that “information and data” are transferred
“irrespective as to whether they are protected by
copyrights or not” is that copyrights are included in the
“information and data” transferred. In other words,
both non-copyrighted information as well as
information with attendant copyrights were assigned
to SWT. Finally, the illustrative list of “information
and data”— “business and trade secrets, technical and
business information and data, inventions, experience
and expertise”—comprises broad and diverse types of
assets. In light of the plain language, one could
reasonably interpret the language to include the
assignment of copyrights.
The district court’s reasons for concluding that the
agreement unambiguously did not assign copyrights do
not bar this other reasonable interpretation.2

2

Watermark and Gethin argue that copyrights can be transferred
only if the language of the agreement unambiguously so provides.

App. 20
The district court first reasoned that the words
“information and data” are an “odd container” for
copyrights because copyrights only protect the manner
in which the information or data is expressly used.
(R. 217, PID 8171.) The district court’s second reason is
related: it fairly pointed out that “there is a difference
between assigning information and data and assigning
ownership in the work embodying that information and
data.” (Id.) Thus, according to the district court, the
transfer could include only free-floating data and

The sole authority Watermark and Gethin rely on for this
proposition is Shugrue v. Continental Airlines, Inc., 977 F. Supp.
280, 285 (S.D.N.Y. 1997). In Shugrue, the court held that 17 U.S.C.
§ 202 requires that an agreement unambiguously transfer
copyrights. Section 202 provides in relevant part that “[o]wnership
of a copyright . . . is distinct from ownership of any material object
in which the work is embodied,” so “[t]ransfer of ownership of any
material object . . . does not of itself convey any rights to the
copyrighted work embodied in the object.” The Shugrue court
interpreted this to mean that “if the language of the transfer is
ambiguous, the contract will be read to transfer only the material
object, not ownership of the copyright itself.” 977 F. Supp. at 285.
However, the statutory language does not suggest that
requirement. Moreover, this court has previously found that a
contract that was ambiguous on its face nonetheless transferred
copyrights. See Gilleland v. Schanhals, 55 F. App’x 257, 260 (6th
Cir. 2003); see also Kendall Holdings, Ltd. v. Eden Cryogenics,
LLC, 521 F. App’x 453, 460 (6th Cir. 2013) (holding that a material
issue of fact existed as to whether party was owner of copyrights
where party’s consulting agreement gave the other party
“ownership of his ‘ideas, inventions, improvements, and
developments,’ as well as signing shop drawings bearing the ‘sole
property of [the other party]’ legend”); Johnson v. Storix, Inc., 716
F. App’x 628, 631 (9th Cir. 2017) (holding that whether the
transfer of “all assets” included copyrights was an issue properly
for the jury to decide).

App. 21
information, unaffixed to a document. However,
“information and data” could be interpreted to include
the information and data as it is found in documents.
That interpretation is supported by Section 2.2’s
provision that if within 24 months after the sale,
SWT/Evoqua needed “a copy of a part of the
Transferred Know-how for the operation of the
Business,” Siemens would provide “such copy.” (Id. at
PID 784 (emphasis added).) That provision suggests
that the transfer includes information and data in
physical mediums. Further, although transferring
ownership in a copy of work is not tantamount to
transferring ownership in the copyright to that work,
here the agreement could be reasonably interpreted as
transferring the copyright as well. The language that
Siemens “assign[s]” the “information and data” is
susceptible of the interpretation that information and
data are transferred in full, including all rights
associated with that information and data.
The district court next interpreted the words
“irrespective as to whether they are protected by
copyrights or not” in Section 2.2 to suggest that the
copyrights were not the object of the assignment. To be
sure, that language could be read to suggest that the
“information and data” are separate from any
copyrights covering them. But it is also susceptible of
another reading: the Carve-Out Agreement transfers
both information that is copyrighted (and those
copyrights) and information that is not copyrighted.
The district court next focused on the illustrative
list of “Know-how”—“business and trade secrets,
technical and business information and data,

App. 22
inventions, experience and expertise.” (R. 48-, PID
783.) The district court concluded that those items
“may each be a form of intangible property, but they
are not copyrights.” (R. 217, PID 8173.) However, one
could reasonably view those terms as illustrating the
broad scope of “Know-how.” Each term is fairly broad
and general, and the list does not necessarily suggest
that copyrights to information as it is presented in
mediums such as product manuals are not included in
know-how.
Contrasting the different transfer language used in
Section 2.2 (“assigns” with the language used in
Section 1.1 (“transfers . . . all of Seller’s right, title, and
interest” in non-IP assets), the district court perceived
that the “transfer of all right, title and interest” in
Section 1.1 is broader than the “assign[ment]” of knowhow in Section 2.2. But because both sections use the
word “sells,” and “assign” could mean to convey in full,
the mere difference in language between Section 1.1
and Section 2.2 does not necessarily mean that fewer
ownership rights were conveyed in the latter section.
The district court also pointed out that Section 1.1.4,
transferring “Seller’s books and records, files and other
documents and data (including written and electronic
training materials utilized to train the employees of the
Business),” explicitly excludes “any other intellectual
property rights.” (R. 48-1, PID 780.) The district court
considered Section 1.1.4 a “natural place to transfer the
copyrights in the manuals and presentations by earlier
entities.” (R. 217, PID 8173.) However, the agreement
clearly contemplates separate sections for transferring
non-intellectual-property assets (Section 1) and
intellectual-property (Section 2), so it makes sense that

App. 23
copyrights would not be transferred in the section
selling assets other than intellectual property.
Finally, the district court noted that Section 2.3
assigned software, a copyrightable asset, and reasoned
that it undercut Evoqua’s contention that Section 2.2
assigned all copyrights. However, the separate section
for Software does not render Evoqua’s construction
unreasonable. Section 2.2 explicitly excludes “software”
from the definition of “Know-how,” and one could
reasonably construe Section 2.2 as transferring all
copyrights in the “Know-how,” and Section 2.3
transferring copyrights to “Software.”
In sum, even taking all the reasons together, the
Carve-Out Agreement does not unambiguously exclude
the transfer of copyrights. Rather, the language of the
Carve-Out Agreement is ambiguous. Accordingly, we
may look outside the four corners of the contract to
determine the parties’ intent. GMG Capital Invs., 36
A.3d at 780. Evoqua presented affidavits from
representatives of SWT/Evoqua and Siemens in which
both assert that it was the parties’ intent to sell the
copyrights. Because the intent of the parties is a
disputed issue of a material fact, the district court
improperly granted summary judgment on that basis.3
In their motion for summary judgment, Watermark
and Gethin raised other arguments concerning the
alleged deficiencies in the copyright registrations and
3

Because we conclude that summary judgment to Watermark and
Gethin was improper on the copyright claim, we do not reach
whether the district court properly denied Watermark’s and
Gethin’s request for attorney’s fees on this claim.

App. 24
the chain of title in the copyrights before the sale to
SWT. Because the district court decided only that the
Carve-Out Agreement did not transfer copyrights, we
vacate the grant of summary judgment and remand to
allow the district court to consider the parties’
remaining arguments.
V. ATTORNEY’S FEES ON THE FALSEADVERTISING CLAIM
We review a district court’s decision whether to
award attorney’s fees under the Lanham Act for an
abuse of discretion. See Johnson v. Jones, 149 F.3d 494,
503 (6th Cir. 1998). The Lanham Act permits a court to
award attorney’s fees to the prevailing party in
“exceptional cases.” 15 U.S.C. §1117(a). “[A]n
‘exceptional’ case is simply one that stands out from
others with respect to the substantive strength of a
party’s litigating position (considering both the
governing law and the facts of the case) or the
unreasonable manner in which the case was litigated.”
Octane Fitness, LLC v. ICON Health & Fitness, Inc.,
572 U.S. 545, 554 (2014).4 District courts “determine
whether a case is exceptional in the case-by-case
exercise of their discretion, considering the totality of
the circumstances.” Id. (citation omitted)
The district court did not abuse its discretion in
denying Watermark and Gethin attorney’s fees on the
false-advertising claim.

4

The Court in Octane Fitness was interpreting the Patent Act’s
fee-shifting provision, but noted that the Lanham Act’s fee-shifting
provision was “identical.” 572 U.S. at 554.

App. 25
Evoqua’s copyright claim is not so weak as to be
exceptional. A claim for false advertising under the
Lanham Act has the following elements:
1) the defendant has made false or misleading
statements of fact concerning his own product or
another’s; 2) the statement actually or tends to
deceive a substantial portion of the intended
audience; 3) the statement is material in that it
will likely influence the deceived consumer’s
purchasing decisions; 4) the advertisements
were introduced into interstate commerce; and
5) there is some causal link between the
challenged statements and harm to the plaintiff.
Am. Council of Certified Podiatric Physicians &
Surgeons v. Am. Bd. of Podiatric Surgery, Inc., 185
F.3d 606, 613 (6th Cir. 1999) (citations omitted). Here,
as the district court noted, both parties presented
evidence on whether Watermark’s advertisement that
it offered “OEM parts” or Evoqua’s filter presses was
deceptive, and the success of the claim at trial came
down to a credibility contest between the parties’
respective witnesses.
Watermark’s and Gethin’s arguments otherwise are
unavailing. Watermark and Gethin argue that Evoqua
pursued the false-advertising claim even after the
allegedly false advertising had been removed. However,
as the district court noted, Evoqua could still
reasonably pursue the claim if the false advertising had
caused it damage or if it believed Watermark would
falsely advertise in this way again. Watermark and
Gethin also argue that Evoqua pursued the claim to
trial knowing that it could not present evidence of

App. 26
damages and offered no evidence of damages at trial.
Yet, Evoqua presented evidence that Watermark’s use
of “OEM” could tend to deceive consumers and that the
misrepresentation harmed Evoqua’s goodwill and
reputation. See Herman Miller, Inc. v. Palazzetti Imps.
& Exps., Inc., 270 F.3d 298, 323 (6th Cir. 2001) (“A
plaintiff seeking injunctive relief for false advertising
faces a lower standard of showing only that the
defendant’s representations about its product have a
tendency to deceive consumers.” (emphasis omitted)
(internal quotation marks omitted)). Moreover, Evoqua
could pursue an injunction even if damages were hard
to quantify. See Lexmark Int’l, Inc. v. Static Control
Components, Inc., 572 U.S. 118, 135 (2014); see also
Am. Council, 185 F.3d at 618 (recognizing that a
plaintiff could pursue injunctive relief on falseadvertising claim).
The district court was also within its discretion to
conclude that Evoqua’s litigation tactics did not
warrant a shift of fees. Watermark and Gethin argue
that Evoqua’s discovery requests were overbroad, but
the district court reasonably found that those requests
did not increase Watermark’s and Gethin’s fees
because they simply refused to comply with those
requests. The district court further did not err in
concluding that although there was evidence that
Evoqua thought it could gain a competitive advantage
by litigating against Watermark, Evoqua still pursued
its claims in good faith. Watermark and Gethin
interpret some of Evoqua’s materials in the most
negative light, yet those materials could also indicate
that Evoqua noticed that Watermark was falsely

App. 27
advertising a relationship with Evoqua, and reasonably
sought to enjoin those acts and obtain damages.
In sum, the district court did not abuse its
discretion in denying Watermark’s and Gethin’s
request for attorney’s fees on Evoqua’s falseadvertising claim.
VI. CONCLUSION
For the above reasons, we VACATE the district
court’s dismissal of Count I of the complaint; VACATE
the district court’s grant of summary judgment on
Evoqua’s copyright claim; AFFIRM the district court’s
denial of Watermark’s and Gethin’s request for
attorney fees on Evoqua’s false-advertising claim; and
REMAND for further proceedings.
_________________
CONCURRENCE
_________________
JOHN K. BUSH, Circuit Judge, concurring. I join
the Majority Opinion in full as it faithfully applies the
case law of our circuit. However, I write separately to
address one discrete issue where I believe our
precedents are wrong: specifically, the jurisdictional
source of the law governing interpretation of a consent
decree entered by a federal court. As the Majority
explains, “[i]n the absence of controlling federal law,
contractual interpretation of the Consent Judgment is
governed by Michigan Law”—i.e., state law. Majority
Op. at 8 (citing Sault Ste. Marie Tribe of Chippewa
Indians v. Engler, 146 F.3d 367, 371 (6th Cir. 1998)).

App. 28
Because a consent decree is viewed as a “contract,” our
circuit interprets it using the state law from where it
was entered. See John B. v. Emkes, 710 F.3d 394, 407
(6th Cir. 2013) (“[W]e interpret the consent decree as a
contract. And under Tennessee law, which guides our
interpretation of the decree here, our primary goal is to
give effect to the parties’ intent as expressed in the
decree itself.” (citations omitted)).
But, we should not forget that the consent decree
here was entered by a federal court, and that fact
makes all the difference, for reasons I will explain.
True, the Supreme Court has described a consent
decree as a “contract,” but it has never expressly held
that state law controls interpretation when the consent
decree is from a federal court. See, e.g., United States v.
ITT Cont’l Baking Co., 420 U.S. 223, 236–37 (1975). I
believe a federal rule of decision is appropriate in these
circumstances because a judicial decree is an integral
component of the Article III power to decide cases and
controversies. Most significantly, applying federal law
to this case would warrant a change in its disposition:
because the parties expressly contemplated who was
subject to the consent decree, federal law (unlike
Michigan law) would allow only those expressly
identified entities to enforce this particular decree and
would not imply that right of enforcement to others,
such as Evoqua Water Technologies, LLC (“Evoqua”),
not identified by name or description in the decree. In
light of the above, this court would be wise to revisit its
precedents on whether to apply state or federal law to
federal consent decree interpretation issues.

App. 29
I.
To understand why federal law should govern
interpretation of a consent decree entered in a federal
court, it is first important to understand what federal
consent decrees are. They are final judgments entered
by federal courts. Though typically drafted by the
parties, consent decrees are judicially enforceable
orders that draw upon the district court’s authority to
provide the parties with both equitable and legal
remedies. See Rufo v. Inmates of Suffolk Cnty. Jail, 502
U.S. 367, 378 (1992); United States v. Swift & Co., 286
U.S. 106, 120 (1932); see also Carson v. Am. Brands,
Inc., 450 U.S. 79, 86–87 (1981). Indeed, to enter a
proposed consent decree, the “decree must spring from
and serve to resolve a dispute within the court’s subject
matter jurisdiction . . . . [It] must come within the
general scope of the case made by the pleadings, and
must further the objectives of the law upon which the
complaint was based.” Local No. 93 Int’l Ass’n of
Firefighters, AFL-CIO C.L.C. v. City of Cleveland, 478
U.S. 501, 525 (1986) (citations omitted) (internal
quotation marks omitted).
In this respect, a consent decree is dissimilar to an
agreement to settle litigation, in which only the
litigants have a say and need not meet all the criteria
for entry of a court judgment. Cf. Kokkonen v.
Guardian Life Ins. Co. of Am., 511 U.S. 375, 381–82
(1994) (observing that “automatic jurisdiction over
[settlement agreement] contracts is in no way essential
to the conduct of federal-court business”). Unlike a
settlement agreement, a consent decree entered in
federal district court draws upon the Article III power,

App. 30
and the decree invokes the court’s continuing
jurisdiction to ensure compliance with its order until
the parties have fulfilled their obligations. See
Williams v. Vukovich, 720 F.2d 909, 920 (6th Cir.
1983); see also Bergman v. Mich. State Transp.
Comm’n, 665 F.3d 681, 683–84 (6th Cir. 2011). A
settlement agreement lacks these features because it is
only a contract between parties made in consideration
of the dismissal of the federal lawsuit. See Kokkonen,
511 U.S. at 381. Moreover, unless the parties agree to
embody the settlement agreement in the district court’s
order, “enforcement of the settlement agreement is for
state courts” as a matter of state contract law. Id. at
382.
Federal consent decrees, by their nature, are
therefore more than just contractual arrangements
between litigants: they are also acts of Article III power.
Swift & Co., 286 U.S. at 115 (“We reject the argument
for the intervenors that a decree entered upon consent
is to be treated as a contract and not as a judicial act.”).
It is true that the parties’ bargained-for agreement
“serves as the source of the court’s authority” to enter
the decree,1 but a consent decree is more than just an
entry of an order acknowledging the parties’ settlement.
See Local No. 93 Int’l Ass’n of Firefighters, 478 U.S. at
522 (citing United States v. Ward Baking Co., 376 U.S.

1

This court has described the nature of the bargain underlying a
consent decree as follows: “The defendant has given up the
possibility of prevailing on the merits in exchange for granting
certain limited affirmative relief to plaintiffs” and the “[p]laintiffs
have exchanged their right to obtain adjudicatory relief.” Williams
v. Vukovich, 720 F.2d 909, 920 (6th Cir. 1983).

App. 31
327 (1964)); United States v. Armour & Co., 402 U.S.
673, 681 (1971). It is a judicial act that results in a final
judgment in the case, which in turn, requires the
district court to participate as an additional actor, along
with the parties, to resolve the case. See Buckhannon
Bd. & Care Home, Inc. v. W. Va. Dep’t of Health &
Human Res., 532 U.S. 598, 604 n.7 (2001) (“Private
settlements do not entail the judicial approval and
oversight involved in consent decrees.”).
By entering the consent decree as a final order, the
“[j]udicial approval of a settlement agreement places
the power and prestige of the court behind the
compromise struck by the parties.” Williams, 720 F.2d
at 920. In light of this, the district court has an
“independent, juridical interest[]” in entering consent
decrees “beyond the remedial ‘contractual’ terms
agreed upon by the parties.” EEOC v. Local 580, Int’l
Ass’n of Bridge, Structural & Ornamental Ironworkers,
Joint Apprentice-Journeyman Educ. Fund, 925 F.2d
588, 593 (2d Cir. 1991).
As this court has explained, a consent decree may
not be entered if the agreement “is illegal, a product of
collusion, or contrary to the public interest.” Williams,
720 F.2d at 920 (citations omitted). In other words, the
district court “is more than ‘a recorder of contracts’
from whom parties can purchase injunctions; it is an
organ of government constituted to make judicial
decisions.” Local No. 93, Int’l Ass’n of Firefighters, 478
U.S. at 525 (internal quotation omitted); see also In re
Pearson, 990 F.2d 653, 658 (1st Cir. 1993) (“Put
bluntly, ‘parties cannot, by giving each other
consideration, purchase from a court of equity a

App. 32
continuing injunction.’” (quoting Sys. Fed’n No. 91, Ry.
Emps.’ Dep’t v. Wright, 364 U.S. 642, 651 (1961))).
Thus, the judicial character of the district court’s
consent decree must not be overlooked, even if the
underlying issue involves a matter of the consent
decree’s interpretation.
II.
Following the district court’s entry of the consent
decree, parties may sometimes dispute the nature of
their obligations under the consent decree. Should the
dispute require interpreting a consent decree’s
language, the Supreme Court has provided lower
courts with interpretive rules to guide their analysis of
that language. See Blue Chip Stamps v. Manor Drugs
Stores, 421 U.S. 723, 750 (1975); ITT Cont’l Baking Co.,
420 U.S. at 236; Armour, 402 U.S. at 682. As explained
below, the reasoning of this Supreme Court precedent
strongly points towards application of federal law to
interpret questions concerning federal consent decrees.
A.
Per the Supreme Court’s instruction, we are to
interpret the text of the document and nothing further:
“[T]he scope of a consent decree must be discerned
within its four corners, and not by reference to what
might satisfy the purposes of one of the parties to it.
Because the defendant has, by the decree, waived his
right to litigate the issues raised, a right guaranteed to
him by the Due Process Clause, the conditions upon
which he has given that waiver must be respected, and
the instrument must be construed as it is written, and
not as it might have been written had the plaintiff

App. 33
established his factual claims and legal theories in
litigation.” Armour, 402 U.S. at 682; accord ITT Cont’l
Baking Co., 420 U.S. at 236 n.10.
In fashioning this interpretative rule, the Court
holds that lower courts must be interpreted with the
following understanding of consent decrees in mind:
Consent decrees are entered into by parties
to the case after careful negotiation has
produced agreement on their precise terms. The
parties waive their right to litigate the issues
involved in the case and thus save themselves
the time, expense, and inevitable risk of
litigation. Naturally, the agreement reached
normally embodies a compromise; in exchange
for the saving of cost and elimination of risk, the
parties each give up something they might have
won had they proceeded with the ligation. Thus
the decree itself cannot be said to have a
purpose; rather the parties have purposes,
generally opposed to each other, and the
resultant decree embodies as much of those
opposing purposes as the respective parties have
the bargaining power and skill to achieve.
Armour, 402 U.S. at 681–82.
Therefore, it is the actual text of the consent decree,
not what one party argues is its purpose after the fact,
that governs. Id. And that text, the Supreme Court has
stated, is to be interpreted employing certain “aids to
construction” used in contract law. ITT Cont’l Baking
Co., 420 U.S. at 238. “Such aids include the
circumstances surrounding the formation of the

App. 34
consent order, any technical meaning words used may
have had to the parties, and any other documents
expressly incorporated in the decree.” Id. Also, any
construction of the consent decree, including any
proposed modification of the consent, must be
supported by the text of the instrument. See United
States v. Atl. Ref. Co., 360 U.S. 19, 23 (1959); Hughes v.
United States, 342 U.S. 353, 357 (1952).
Lastly—and this is a point particularly important to
this case—there is “well-settled line of authority from
[the] Court establish[ing] that a consent decree is not
enforceable directly or in collateral proceedings by
those who are not parties to it even though they were
intended to be benefited by it.” Blue Chip Stamps, 421
U.S. at 750 (citing Armour, 402 U.S. at 673; Buckeye
Coal & Ry. Co. v. Hocking Valley Ry. Co., 269 U.S. 42
(1925)). The corollary to this rule of federal law is that
a federal consent decree may only be enforced by the
parties who are explicitly identified or described in the
decree. Cf. id.; see also Armour, 402 U.S. at 673.
B.
The above-stated rules of federal consent-decree
interpretation have been stated by the Supreme Court
as principles of federal common law.2 The Supreme
2

By “federal common law,” I refer to “federal rules of decision
whose content cannot be traced directly by traditional methods of
interpretation to federal statutory or constitutional commands,”
Hart & Wechsler’s: The Federal Courts and the Federal System 635
(Richard H. Fallon, Jr., et al., 7th ed. 2015), which has the force
and effect of positive federal law. Boyle v. United Techs. Corp., 487
U.S. 500, 504 (1988); see also Atherton v. FDIC, 519 U.S. 213, 218
(1997).

App. 35
Court’s directive in this regard is wholly consistent
with, if not compelled by, our nation’s constitutional
structure. This is because interpreting federal
judgments is a matter beyond the State legislatures’
competence and is a matter incidental to the judiciary’s
core constitutional function as set forth in Article III of
the Constitution: to issue judgments in all cases and
controversies in matters within its limited subjectmatter jurisdiction.
As the Supreme Court made clear in Erie Railroad
Co. v. Tompkins, “[t]here is no federal general common
law.” 304 U.S. 64, 78 (1938). Nonetheless, the Court
has recognized “enclaves of federal judge-made law
which bind the States.” Banco Nacional de Cuba v.
Sabbatino, 376 U.S. 398, 426 (1964). As the Court
explained, “federal common law exists only in such
narrow areas as those concerned with the rights and
obligations of the United States, interstate and
international disputes implicating the conflicting rights
of States or our relations with foreign nations, and
admiralty cases.” Tex. Indus. v. Radcliff Materials, Inc.,
451 U.S. 630, 641 (1981) (footnotes omitted).
Admittedly, the boundaries of federal common law
enclaves are sometimes less than clear. The Court has
instructed that federal common law applies to a
dispute involving “uniquely federal interests,” between
two private parties because “the interests of the United
States will be directly affected.” Boyle v. United Techs.
Corp., 487 U.S. 500, 504, 507 (1988). When an area of
law presents a uniquely federal interest, the creation of
federal common law is “limited to situations where
there is a ‘significant conflict between some federal

App. 36
policy or interest and the use of state law.’” O’Melveny
& Myers v. FDIC, 512 U.S. 79, 88 (1994) (quoting
Wallis v. Pan Am. Petroleum Corp., 384 U.S. 63, 68
(1966)); see also Kamen v. Kemper Fin. Servs. Inc., 500
U.S. 90, 98 (1991) (holding that there is a presumption
to apply state law “in areas in which private parties
have entered legal relationships with the expectation
that their rights and obligations would be governed by
state-law standards”).
The Court’s heeding to limit the application of
“judge-made” federal rules derives from the
constitutional concerns raised in Erie. See Bradford R.
Clark, Federal Common Law: A Structural
Reinterpretation, 144 U. Pa. L. Rev. 1245, 1265 (1996).
Erie’s holding rests on two fundamental constitutional
principles: federalism and separation of powers. See
Lindenberg v. Jackson Nat’l Life Ins. Co., 919 F.3d 992,
996 n.4 (6th Cir. 2019) (Bush, J., dissenting from the
denial of rehearing en banc). As a matter of federalism,
federal courts “unconstitutionally invade ‘the autonomy
and independence of the States’ whenever they
unilaterally apply a rule of their own choosing in lieu
of substantive state law—that is, in the absence of a
controlling federal constitutional, statutory, or treaty
provision requiring application of that rule.” Clark,
supra, at 1259 (quoting Erie, 304 U.S. at 78). And as for
the second constitutional principle presented in Erie,
the “[o]pen-ended federal common lawmaking by courts
enables the judiciary to evade the safeguards inherent
in” the Constitution’s procedural scheme for fashioning
positive federal law. Id. at 1269; Nw. Airlines, Inc. v.
Transp. Workers Union of Am. AFL-CIO, 451 U.S. 77,
95 (1981) (“[F]ederal courts, unlike their state

App. 37
counterparts, are courts of limited jurisdiction that
have not been vested with open-ended lawmaking
powers.”).
Assuming an area of law warrants a uniform federal
law, these above-mentioned constitutional concerns are
addressed if “the rule in question . . . concern[s]
matters that fall beyond the legislative competence of
the states” and must “be necessary to further some
aspect of the constitutional scheme.” Clark, supra, at
1271; see generally id. at 1271–75. The first step is
rather intuitive: any rule fashioned by a federal
authority involving a matter beyond the legislative
competence of the States does not offend the federalism
concerns expressed in Erie. Id. at 1274. And the second
inquiry asks, “whether judicial application of the rule
in question constitutes either the application of rules
implied directly from the constitutional structure, or
adherence to customary rules of decision necessary to
implement a basic feature of the constitutional
scheme.” Id.
The power of Article III courts to issue judgments
and issue their interpretation of other federal courts’
judgments is without question a matter involving
unique federal interests. See Atherton v. FDIC, 519
U.S. 213, 218–19 (1997); cf. Semtek Int’l Inc. v.
Lockheed Martin Corp., 531 U.S. 497, 508 (2001).
Moreover, the interpretation of a federal court’s
consent decree is a matter beyond the State
legislatures’ competence. Cf. Fortin v. Comm’r of Mass.
Dep’t of Pub. Welfare, 692 F.2d 790, 798 (1st Cir. 1982)
(explaining that “[t]here is no state court to which the
question of interpreting the decree could be certified or

App. 38
to whose authority and expertise the federal court
could defer by abstaining”).
A fundamental aspect of our system of government
is the federal judicial department established under
Article III with its power to decide cases and
controversies. Importantly, at the irreducible core of
Article III authority, is the power to enter final
judgments. See Gordon v. United States, 117 U.S. 697,
702 (decided 1864, Opinion printed in Appendix 1885);
see also Young v. United States ex rel. Vuitton et Fils
S.A., 481 U.S. 787, 816 (1987) (Scalia, J., concurring in
the judgment) (observing that the role of a federal
judge is “to decide, in accordance with law, who should
prevail in a case or controversy”). This constitutional
power and core function leave no room for state law to
interpret the judgments entered by federal courts.
“Article III of the Constitution establishes an
independent Judiciary, a Third Branch of Government
with the ‘province and duty . . . to say what the law is’
in particular cases and controversies.” Bank Markazi
v. Peterson, 136 S. Ct. 1310, 1322 (2016) (quoting
Marbury v. Madison, 5 U.S. (1 Cranch) 137, 177
(1803)). Incident to that power, Congress “may not
usurp a court’s power to interpret and apply the law to
the circumstances before it.” Id. (cleaned up); accord
City of Arlington v. FCC, 569 U.S. 290, 297 (2013).
States lack the power to usurp a federal court’s Article
III power as well. Cf. Hanna v. Plumer, 380 U.S. 460,
472–73 (1965); Sibbach v. Wilson & Co., 312 U.S. 1,
13–4 (1941). “[T]he Framers crafted this charter of the
judicial department with an expressed understanding
that it gives the Federal Judiciary the power, not

App. 39
merely to rule on cases, but to decide them, subject to
review only by superior courts in the Article III
hierarchy.” Plaut v. Spendthrift Farm, Inc., 514 U.S.
211, 218–19 (1995). Given that the federal judiciary
department’s inherent function is to issue final
judgments, it follows that federal judges have the
power to interpret their judgments using the law of the
jurisdiction from which they derive their power. This
federal judicial power includes the authority to
determine who or what is bound to the court’s
judgments.3 Cf. Restatement (second) of Judgments
§ 87 cmt. a (“The source of the federal courts’s
authority is in Articles I and III of the Constitution. It
is therefore appropriate to hold that, at least in the
absence of some other provision by Congress, the
effects of a federal judgment are a legal implication of
those provisions.”).
Applying state law to the interpretation of federal
consent decrees sharply conflicts with this Article III
power of a federal court over its judgments. Cf. Cincom
Sys., Inc. v. Novelis Corp., 581 F.3d 431, 436 (6th Cir.
2009). The unflinching and mechanical use of state law
to interpret consent decrees results in the
quintessential act of a federal government
department—federal court’s final judgment—being
governed by the vagaries of the law of a different
3

This inherent function is analogous to the federal judiciary’s
“inherent power, governed not by rule or statute but by the control
necessarily vested in courts to manage their own affairs so as to
achieve the orderly and expeditious disposition of cases.” Link v.
Wabash R.R. Co., 370 U.S. 626, 630–31 (1962) (internal quotation
marks omitted); see also In re Univ. of Mich., 936 F.3d 460 (6th
Cir. 2019).

App. 40
jurisdiction altogether, namely, that of a state
government.4 In contrast, application of federal law
ensures that this chief function of a federal court is
governed by the law of the jurisdiction from which that
court derives its authority.
Moreover, applying federal common law to this area
is consistent with the Supreme Court’s conclusion in
Semtek, which was that the effect of a federal court’s
judgment in subsequent cases is a matter for the courts
“to determine the appropriate federal rule.” 531 U.S. at
508. Indeed, as a matter of equity, it would only be
appropriate for a consent judgment that draws upon
the court’s equitable powers, to be governed by the
federal common law. See Burrill v. Locomobile Co., 258
U.S. 34, 38 (1922) (recognizing that “the laws of the
States are the rules of decision” in common law actions,
but the court’s equity “follows its own rules”); see also
Guar. Tr. Co. of N.Y. v. York, 326 U.S. 99, 105 (1945);
Restatement (second) of Judgments § 87 cmt. a (“The

4

For an illustrative, historic example of the negative implications
that could stem from the “mechanical application” of state law in
an area where federal common law would be more appropriate, see
Hanna v. Plumer, 380 U.S. 460, 472–73 (1965) (“One of the
shaping purposes of the Federal Rules is to bring about uniformity
in the federal courts by getting away from local rules. This is
especially true of matters which relate to the administration of
legal proceedings, an area in which federal courts have
traditionally exerted strong inherent power, completely aside from
the powers Congress expressly conferred in the Rules. The purpose
of the Erie doctrine . . . was never to bottle up federal courts with
‘outcome-determinative’ and ‘integral-relations’ stoppers—when
there are ‘affirmative countervailing (federal) considerations’ and
where there is a Congressional mandate . . . supported by
constitutional authority.’”(citation omitted)).

App. 41
few cases in which the federal adjudication was a
decree in equity, as distinct from a judgment at law,
elicited no special notice of the problem of governing
law.”).
Although consent decree interpretation should be a
matter of federal common law, that does not mean that
state law cannot inform the appropriate rule. Given
that the States predominate in matters relating to
contract law, it would be natural to resort to their
principles of contract law should a need arise for a new
interpretive rule. Cf. John Wiley & Sons, Inc. v.
Livingston, 376 U.S. 543, 548 (1964) (“State law may be
utilized so far as it is of aid in the development of
correct principles of their application in a particular
case, but the law which ultimately results is federal.”
(citations omitted)); Semtek, 531 U.S. at 508 (“This is
. . . a classic case for adopting, as the federal prescribed
rule of decision, the law that would be applied by state
courts in the State in which the federal diversity court
sits.”). But, reliance on state common law for guidance
in fashioning the federal common law of consent
decrees should not be mistaken for an abdication of
federal law as the governing law for the interpretation
of a federal court’s consent decree.
III.
A.
In recognizing consent decree interpretation rules,
the Supreme Court has never instructed the lower
federal courts to apply state law. Rather, as explained
above, the Supreme Court impliedly reserved federal
common law for the interpretation of district court

App. 42
consent decrees. See supra, Part II.A. The Sixth
Circuit’s precedent reflected this understanding by
resorting to general principles of federal law to
interpret consent decrees until this court’s decision in
Sault Ste. Marie Tribe of Chippewa Indians v. Engler,
146 F.3d 367 (6th Cir. 1998). At no point prior to the
Sault Ste. Marie decision did our circuit rely on the
underlying state law to supply the rule of decision to
interpret a federal consent decree. Instead, we cited to
United States Supreme Court decisions applying
federal law. See, e.g., Huguley v. Gen. Motors Corp., 67
F.3d 129, 134–35 (6th Cir. 1995); United States v.
Louisville & Jefferson Cty. Metro. Sewer Dist., 983 F.2d
1070, 1993 WL 7516, at *3 (6th Cir. 1993) (unpublished
table opinion); Lorain NAACP v. Lorain Bd. of Educ.,
979 F.2d 1141, 1148 (6th Cir. 1992); Thompson v.
Commonwealth of Ky. Dep’t of Corr., 780 F.2d 1023,
1985 WL 13958, at *1 (6th Cir. 1985) (unpublished
table opinion).
Sault Ste. Marie changed all that. After Sault Ste.
Marie, the generalized principles of federal contract
law no longer provide the rule of decision in matters
relating to a federal consent decree’s interpretation in
our circuit. 146 F.3d at 372. At issue in Sault Ste.
Marie was whether the Native American tribes subject
to a consent decree were required to make payments to
the State of Michigan under the terms of a consent
decree, that required the tribes to make payments if
they held the “exclusive right to operate” electronic
games of chances in Michigan. Id. at 369. At the
invitation of the parties’ briefing, the Sault Ste. Marie
court held that “[b]ecause this contract was formed in
the State of Michigan, it is interpreted under Michigan

App. 43
law.” Id. at 372. The Sault St. Marie court did not
follow the Court’s interpretative guidelines set forth in
Armour and ITT Continental Baking Co. and offered no
explanation for ignoring the applicable Supreme Court
precedent.
Given the Sault Ste. Marie court’s observation that
“[c]onsent decrees and judgments are binding
contracts,” the court concluded that state law should
govern the interpretation of a federal consent judgment
because state law is used to interpret contracts. 146
F.3d at 372 (citation omitted). The court therefore
resorted to principles of Michigan contract law to
determine whether the district court erred in
concluding that the consent decree was unambiguous
and did not need to consider extrinsic evidence to
interpret the ambiguous wording in the consent decree.
See id. at 373–74.
Based on this precedent, this court must now resort
to state contract law to interpret federal consent
decrees. See e.g., John B., 710 F.3d at 407; G.G. Marck
& Assocs., Inc. v. Peng, 09 F. App’x 928, 934 (6th Cir.
2009) (“A consent judgment is treated as a contract
formed and interpreted under the law of the state in
which it was formed.” (citation omitted)); Waste Mgmt.
of Ohio, Inc. v. City of Dayton, 169 F. App’x 976, 988–89
(6th Cir. 2006).5 However, neither Sault Ste. Marie, nor
subsequent cases applying that decision, have ever

5

I would also note that at least in one instance, this court has not
applied state law to interpret the underlying consent decree as
Sault Ste. Marie requires. See Nat’l Ecological Found. v.
Alexander, 496 F.3d 466, 477–81 (6th Cir. 2007).

App. 44
addressed the tension between application of state law
to federal consent decree interpretation and the
Supreme Court’s reasoning in Armour and ITT
Continental Baking Co. Given this court’s abrupt
departure from the Supreme Court’s interpretative
rules for consent decrees, and this court’s inconsistent
approach post-Sault Ste. Marie, I question whether
Sault Ste. Marie was rightly decided.6 I respectfully
submit that the better course for our court would be to
return to the reasoning offered by this court’s decisions
pre-Sault Ste. Marie. In doing so, we would reconcile
our precedent with the Supreme Court’s approach to
interpreting federal consent decrees, and we would
discontinue applying state law within an area it should
not govern.
B.
I would also note that our court’s attention to this
issue is warranted because there is a divide among the
majority of our sister circuits. Compare Doe v. Pataki,
481 F.3d 69, 76–77 (2d Cir. 2007) (no resort to state
law); Pure Country, Inc. v. Sigma Chi Fraternity, 312
F.3d 952, 958–59 (8th Cir. 2002) (same); Sierra Club v.
Meiburg, 296 F.3d 1021, 1029–32 (11th Cir. 2002)
(same); United States v. W. Elec. Co., 12 F.3d 225,
230–31 (D.C. Cir. 1993) (same); Fortin, 692 F.2d at

6

I do not question whether the Sault Ste. Marie court interpreted
the consent decree in the underlying case correctly. I only question
its underlying conclusion that state law governs the interpretation
of consent decrees.

App. 45
798–99 (same);7 Fox v. U.S. Dep’t of Hous. & Urban
Dev., 680 F.2d 315, 319–20 (3d Cir. 1982) (same), with
Frew v. Janek, 780 F.3d 320, 327–28 n.28 (5th Cir.
2015)8 (applying state contract law to resolve consent
decree interpretation); Collins v. Thompson, 8 F.3d
657, 659 (9th Cir. 1993) (same); Sinclair Oil Corp. v.
Scherer, 7 F.3d 191, 194 (10th Cir. 1993) (same);
United States v. City of Northlake, 942 F.2d 1164, 1167
(7th Cir. 1991) (same).

7

It is important to highlight one aspect of the First Circuit’s
reasoning in Fortin. There, the appellant argued that the district
court erred in failing to certify a question to the Massachusetts
Supreme Court to address whether the district court’s remedy was
appropriate under the consent decree in light of state law. 692 F.2d
at 798. The First Circuit rejected the appellant’s argument,
reasoning that “[i]t makes no difference if state law was unclear,
because the court was interpreting the consent decree, not the
underlying law,” and “[t]here is no state court to which the
question of interpreting the decree could be certified or to whose
authority and expertise the federal court could defer by
abstaining.” Id. In other words, state law did not supply a rule of
decision regarding the district court’s interpretation of its own
consent decree. Considering this observation, it follows that the
federal law of interpretation, using the interpretive principles
established by the Supreme Court, should apply.
8

The Fifth Circuit has only recently joined those circuits that
apply state law to interpret consent decrees. Prior to its decision
in Frew, there is no indication that the Fifth Circuit relied upon
state-law contract principles to interpret consent decrees. See, e.g.,
Dean v. City of Shreveport, 438 F.3d 448, 460–61 (5th Cir. 2006);
United States v. Chromalloy Am. Corp., 158 F.3d 345, 349 (5th Cir.
1998); N. Shore Labs. Corp. v. Cohen, 721 F.2d 514, 519–20 (5th
Cir. 1983), overruled on other grounds as recognized by Pebble
Beach Co. v. Tour 18 I Ltd., 155 F.3d 526, 549 n.17 (5th Cir. 1998).

App. 46
Those circuits that apply state law to resolve an
interpretative issue relating to consent decrees have
reasoned, like our court in Sault Ste. Marie, that state
law applies because a “judicially approved consent
decree, like a settlement agreement, is essentially a
contract for purposes of construction.” City of
Northlake, 942 F.2d at 1167 (citation omitted); see also
Frew, 780 F.3d at 328 n.28. While that proposition
might be true at its most basic level, these circuits have
not satisfactorily explained why state law supplies the
rule of decision for a quintessential act of the federal
government—an Article III court’s final judgment—
especially considering the Supreme Court’s
interpretation rules in Armour and ITT Continental
Baking Co. that seem to favor applying federal law in
these circumstances. See supra, Part II.A.
IV.
If this court were to apply federal law to interpret
the consent decree in this case, the outcome would
likely be different. Based upon the four corners of the
consent decree before us, it does not appear that the
parties intended for U.S. Filter/JWI Inc.’s successorsin-interest and assigns to enforce the consent decree.
Under Michigan contract law, a third-party
beneficiary may sue under a breach-of-contract theory
“when the promisor undertakes an obligation ‘directly’
to or for the person.” Koenig v. City of South Haven,
597 N.W.2d 99, 104 (Mich. 1999); accord Kammer
Asphalt Paving Co. v. E. China Twp. Schs., 504 N.W.2d
635, 642 (Mich. 1993); see also Ragnone v. Charter Twp.
of Fenton, No. 267530, 2006 WL 3103043, at *2 (Mich.
Ct. App. Nov. 2, 2006) (per curiam) (applying contract

App. 47
law’s third-party beneficiary doctrine to consent
decrees issued by Michigan trial courts). In essence,
Michigan contract law authorizes third parties (i.e.,
those lacking privity in contract), in limited
circumstances, to enforce a contract between the
original bargaining parties (or their assignees), even if
those beneficiaries are not explicitly referenced in the
contract (or, in the present case, the consent decree). In
the context of federal consent decrees, however, the
Supreme Court, as noted, does not permit this. See
Blue Chip Stamps, 421 U.S. at 750 (“[A] consent decree
is not enforceable directly or in collateral proceedings
by those who are not parties to it even though they
were intended to benefit by it.”); accord Vogel v. City of
Cincinnati, 959 F.2d 594, 598 (6th Cir. 1992).
Given the Supreme Court’s holding that the thirdparty beneficiary doctrine is inapplicable to federal
consent decrees, and the contrary rule that applies
under Michigan contract law, a critical choice must be
made: does the Supreme Court’s precedent in Blue
Chip Stamps apply or does Michigan contract law
apply? Because state law currently governs the
interpretation of federal consent decrees in our circuit,
we must defer to state law (here, Michigan’s law) in
matters relating to the third-party beneficiary doctrine.
This means that at most, the Supreme Court’s decision
in Blue Chip Stamps is persuasive authority. But as
the Majority Opinion recognizes, the Supreme Court’s
decision in Blue Chip Stamps is binding authority. See
Majority Op. at 8. As such, it is key evidence that
federal district courts’ interpretation of consent decrees
should be governed by federal common law and that
the Blue Chip Stamps rule—allowing enforcement of a

App. 48
consent decree by only a beneficiary that is expressly
identified—should apply here. See 421 U.S. at 750.
There also is a conflict between Michigan law and
federal law regarding assignment of contracts. Under
Michigan law, contracts are freely assignable unless
clearly restricted by the language of the instrument.
See Jawad A. Shah, M.D., PC v. State Farm Mut. Auto.
Ins. Co., 920 N.W.2d 148, 158 (Mich. Ct. App. 2018).
Under federal law, consent decrees are not. See Blue
Chip Stamps, 421 U.S. at 750; Armour 402 U.S. at 673.
Similar to Michigan’s third-party beneficiary doctrine,
Michigan’s doctrine of assignability requires courts to
construe the parties’ agreement beyond the four
corners of the consent. As I explain above, the Supreme
Court’s interpretative rules do not permit this. See
supra, Part II.A.
Both parties contemplated that M.W. Watermark
LLC & Michael Gethin as well as their successors-ininterest and assigns would be bound by the consent
decree: the consent decree permanently enjoined “M.W.
Watermark LLC, and Michael Gethin and its, his or
their principals, agents, servants, employees,
attorneys, successors and assigns” from using U.S.
Filter/JWI’s trademarks and other proprietary
information. R. 1-7, PageID 358. However, there is no
such language regarding successors-in-interest and
assigns regarding the enforcement rights of U.S.
Filter/JWI. Applying the federal common law rule of
Blue Chip Stamps, the absence of such language
regarding U.S. Filter/JWI suggests that the parties did
not intend for any successors-in-interest or assigns of
U.S. Filter/JWI, such as Evoqua, to enforce the consent

App. 49
decree. This is because the question of “who” is subject
to the consent decree is a term that is expressly
contemplated by the parties. See Armour, 402 U.S. at
680 (noting that a “successors and assigns’ clause”
would have aided the government’s argument that the
company’s successors and assigns were bound by the
consent decree); see also Thatcher v. Kohl’s Dep’t
Stores, Inc., 397 F.3d 1370, 1375 (Fed. Cir. 2005)
(holding that the absence of successors-in-interest or
assigns clause “is the functional equivalent of the
parties’ express intent to exclude language of
assignment” and “[e]qually as telling is that the
consent judgment specifies successors and assigns
when listing” the defendant’s obligations).
Equally, the language used to describe M.W.
Watermark LLC and Mark Gethin’s obligations under
the decree, further support the conclusion that, if
federal common law applies, the consent decree does
not apply to U.S. Filter/JWI’s successors-in-interests or
assigns. For example, the decree states: “Defendants
are ENJOINED, permanently, from using Plaintiff U.S.
Filter/JWI, Inc.’s (‘USF/JWI’s trademarks . . . and
colorable imitations thereof and any other designs,
designations or indicia in a manner that is likely to
cause confusion, mistake or deception with respect to
USF/JWI’s trademark rights.” R. 1-7. Even Evoqua
concedes in its reply brief: “The clear intention of the
parties, evidenced by the fact that the consent decree
was characterized by the parties and the court as a
Permanent Injunction, was to permanently and forever
enjoin Watermark from misusing the proprietary
information, and infringing the trademarks, of
Evoqua’s predecessor.” Third Br. at 16 (emphasis

App. 50
added). In other words, the obligations of M.W.
Watermark, LLC and Mark Gethin are owed to U.S.
Filter/JWI and not to Evoqua.9
This reading of the consent decree—to limit the
power of its enforcement to only the entities that
obtained and are explicitly identified or described in
the decree—is not a far-fetched reading in light of
practical business considerations. M.W. Watermark
LLC and Michael Gethin may have agreed to the
consent decree, in part, because they wanted it worded
to ensure that only the present parties against which
they were litigating, U.S. Filter/JWI, had the power of
decree enforcement. As a practical, ex ante matter,
there is a significant transactional reason for a party
subject to a consent decree to limit the scope of persons
or entities that may enforce it. As rightly observed by
the district court:
The party restrained by the injunction would
likely be more inclined to impose limits on who
can enforce the injunction, and might try to
negotiate a judgment that limited enforcement
9

As indicated by the Majority Opinion, U.S. Filter/JWI has a long
history of corporate mergers. See Majority Op. at 2. For purposes
of my analysis, I assume that the obligations of M.W. Watermark
LLC and Mark Gethin to U.S. Filter/JWI continue to its successors
who originate by operation of a corporate merger: here, Siemens
Water Technologies Holding Corporation and Siemens Industry,
Inc. Because Siemens Industry, Inc. sold its water technologies
business to Siemens Water Technologies LLC and Siemens Water
Technologies was not a product corporate merger, I do not consider
the obligations of M.W. Watermark LLC and Mark Gethin under
the consent to decree to pass on to Siemens Water Technologies
LLC.

App. 51
to the original plaintiff. After all, a restrained
party has no control over who the original party
selects as an assignee, and the restrained party
may be substantially more burdened by
enforcement by an assignee than by the original
plaintiff.
R. 154, PageID 6979 n.7.
Therefore, for the purpose of avoiding the chilling of
future parties’ willingness to enter into transactions at
the front-end, and in light of the importance of strongly
favoring the settlement of disputes with limited, or
without, litigation at the back end, see Ford Motor Co.
v. Mustangs Unlimited, Inc., 487 F.3d 465, 469 (6th
Cir. 2007), we should honor any parties’ bargain that
sets a limit to the entities subject to the consent decree.
On the other hand, if there is a possibility that
parties remain uncertain as to the precise scope of the
consent decree because of the underlying state contract
law, as our current doctrine compels, there is a risk
that parties may avoid settlement activities out of fear
that unknown parties could arise out of the woodwork
later to make claims under the consent decree. A
certain way to avoid this risk, and to promote
uniformity in this area, would be through a
consistently applied federal rule. The consistent use of
a federal rule of decision to interpret consent decrees
issued by federal courts would be the most pragmatic
means in which to avoid this risk, and to promote
uniformity in this field of law. Thus, according to the
Supreme Court’s interpretative rules, we must look to
the parties’ express language as used in the consent
decree at issue to settle the underlying controversy

App. 52
here: whether U.S. Filter/JWI’s successors-in-interest
or assignees may enforce this consent decree. This
language seems to preclude enforcement by such
successors-in-interest and assigns because language
giving them the right of enforcement was not included
in the consent decree.
Therefore, applying federal common law, the
agreement would not be read to tether the defendants’
obligations to the specific intellectual property
regardless of who owns it. Instead, the agreement, as
written, reflects the parties’ intent to bind the
defendants to the intellectual property at issue when it
is owned by U.S. Filter/JWI. To hold otherwise, would
depart from the parties’ intended arrangement. See
Huguley, 67 F.3d at 133 (“A consent decree is a
contractual agreement and, if the parties have agreed
not to impose [enforcement by successors-in-interest or
assigns], the district court is not free to reform the
contract to compensate one party for making a bad
bargain.”).
But, because we are bound by Sault Ste. Marie to
apply state law to the consent decree interpretation
issues here, I agree with the Majority that Evoqua, as
a successor-in-interest or an assign of U.S. Filter/JWI,
may enforce the consent decree, despite that there is no
express language in the decree giving Evoqua this
right.
V.
This is a case whose outcome in part hinges on
whether state law or federal law applies. And although
I would have applied federal law to resolve it, as that

App. 53
is the appropriate source of law to supply the rule of
decision for this case, our precedent requires us to
apply state contract law. Thus, I respectfully concur
and further note that it may be prudent for the full
court to revisit this issue.

App. 54

APPENDIX B
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Case No. 1:16-cv-14
Honorable Robert J. Jonker
[Filed November 5, 2018]
__________________________
EVOQUA WATER
)
TECHNOLOGIES LLC,
)
)
Plaintiff,
)
)
v.
)
)
M.W. WATERMARK,
)
LLC, et al.,
)
)
Defendants.
)
__________________________ )
OPINION
I. PROCEDURAL HISTORY
Plaintiff Evoqua Water Technologies LLC
(“Evoqua”) brought this lawsuit against Defendants
Michael Gethin and M.W. Watermark, LLC
(“Watermark”), claiming trademark infringement and
false advertising in violation of the Lanham Act, 15
U.S.C. § 1125(a), and copyright infringement in

App. 55
violation of the Copyright Act, 17 U.S.C. § 101 et seq.
The Court dismissed Evoqua’s copyright claim on a
motion for summary judgment, and the remaining
claims proceeded to trial. Following a three-day jury
trial, a jury held that Watermark, but not Gethin, was
liable for trademark infringement. It awarded Evoqua
damages of $0. (Jury Verdict, ECF No. 239.) The jury
also found that the trademark infringement was not
willful, and that Defendants did not engage in false
advertising. (Id.)
Before the Court is Evoqua’s motion for a
permanent injunction (ECF No. 241), motion for
judgment as a matter of law and/or a new trial on
willful infringement, and for attorney’s fees, costs, and
enhanced damages (ECF No. 242), motion for judgment
as a matter of law regarding Gethin’s liability for
infringement (ECF No. 243), motion for a new trial on
damages (ECF No. 244), and motion for judgment as a
matter of law regarding Defendants’ liability for false
advertising (ECF No. 245). Also before the Court is
Watermark’s motion for attorney’s fees (ECF No. 247).
The Court denies all the motions.
II. THE TRIAL CLAIMS
Evoqua and Watermark are competitors in the
de-watering business. Gethin is the President of
Watermark. Evoqua and Watermark both sell
equipment, including sludge dryers and filter presses,
that removes water from industrial waste (“sludge”) to
make the waste easier and less expensive to manage.
They also sell replacement parts for used de-watering
equipment originally manufactured and sold by
themselves or by other companies.

App. 56
A. Trademark Claim
Evoqua claims that Gethin and Watermark
infringed Evoqua’s J-Mate trademark by selling sludge
dryers named “DryMate” and by using the terms
“J-Mate” and “JMate” on Watermark’s website.
J-Mate is a trademark originally used by a company
called JWI, Inc., for sludge dryers. JWI used a “J-”
prefix to identify many of its products. In addition to
J-Mate, JWI sold products using the trademarks
“J-Press,” “J-VAP,” and “J-Spin.” (Trial Tr. I, 51, ECF
No. 258.) Gethin worked for JWI before leaving to start
his own business. Many years later, Siemens acquired
JWI’s trademarks and some of its assets through a
series of corporate transactions. Evoqua subsequently
acquired the J-Mate mark in 2013, when Siemens
spun-off its de-watering business division into a
separate entity, Siemens Water Technologies, which
later changed its name to Evoqua Water Technologies,
the plaintiff in this action.
In 2012, before Evoqua came into being, Siemens
decided to “exit” the market for J-Mate sludge dryers.
Evoqua continued this plan in 2014, notifying its sales
representatives of its decision to discontinue the
J-Mate product line. (Trial Tr. I, 56-58, 98-102.)
Because of that decision, Evoqua did not advertise or
sell any J-Mate dryers in 2014 or 2015. (Id. at 100;
Trial Tr. II, 68-69, 100, ECF No. 256.)
Watermark refurbished and sold used J-Mate
dryers. Some of its customers complained that they
could no longer purchase a new J-Mate dryer from
Siemens/Evoqua, so Watermark decided to develop and

App. 57
sell its own new sludge dryer that was similar to the
J-Mate. (Trial Tr. II, 11.) Near the end of the
development process for its sludge dryer, Watermark
had not yet settled on a name for its product. Its sales
representatives used different names when pitching
the dryer to customers; some called it a “DryMark,”
others called it a “DryMate,” and others simply
referred to it as a sludge dryer. (Trial Tr. II, 8.) Gethin
and his employees agreed that they should be
consistent in how they referred to the dryer, but his
sales representatives did not have a preference for
which name to use. The only feedback that Gethin
received was that one employee did not like the name
DryMark. Consequently, Gethin settled on the name
DryMate. (Id. at 9.)
Watermark officially announced its DryMate dryer
through an email to customers in 2014. It received only
six orders for new sludge dryers while using the name
“DryMate.” In May 2016, it changed the name of its
dryer to “M.W. Watermark Continuous Sludge Dryer,”
in response to concerns raised by Evoqua. (Trial Tr. II,
16.) Of those original six dryers, only the first one
shipped to the customer under the DryMate label. The
other five shipped to the customer as M.W. Watermark
Continuous Sludge Dryers. Watermark made a small
profit on the sale of all six sludge dryers, but it sold the
first dryer—the only one bearing the DryMate
name—at a loss.
Watermark also used the terms “J-Mate” and
“JMate” on its website in a few places. On one page, a
blog post compared the DryMate dryer to the J-Mate
dryer. Another page discussing the DryMate dryer was

App. 58
titled, “Is it time to replace your sludge dryer?” Near
the bottom of this page was a list of “tagged” terms,
including J-Mate and JMate. In addition, Watermark
developed a “search optimization” strategy for the term
“J-Mate,” the details of which were not explored at
trial. Watermark removed all references to J-Mate
from its website before trial, in response to concerns
raised by Evoqua.
At trial, Evoqua did not present any proofs seeking
damages for Watermark’s use of J-Mate and JMate. Its
damages expert testified only about Watermark’s
revenue from the sale of DryMate dryers.
B. False Advertising Claim
Evoqua also claims that Defendants made a false
advertising statement. Watermark sells replacement
parts for Evoqua equipment. Evoqua’s equipment
contains parts that are made by third-party
manufacturers. For instance, Evoqua’s filter press
contains a filter pump made by Haskel. Watermark
acquired replacement parts from the same third-party
manufacturers who supplied the equivalent parts to
Evoqua, and then Watermark sold those parts (e.g., the
Haskel filter pump) as “OEM parts” for Evoqua
equipment. Watermark’s website stated that it
“features OEM parts” for J-Press, Siemens, U.S. Filter,
and other entities associated with Evoqua’s products.
Evoqua claimed that this statement is literally false.
The parties dispute the meaning of the term “OEM
part.” They agree that OEM stands for original
equipment manufacturer, but they disagree about
whether the OEM is the maker of the parts or the

App. 59
manufacturer and seller of the equipment in which
those parts are installed. At trial, two Evoqua
employees expressed their opinions that, in the
de-watering industry, the OEM is the manufacturer
and seller of the equipment that uses the component
parts. In other words, Evoqua is the OEM for the filter
presses that it sells, and for all the component parts
that go into its filter presses, even though some of
those parts are made by third parties. Thus, in
Evoqua’s view, an “OEM part” for an Evoqua filter
press is a part that is sold by Evoqua, or with Evoqua’s
approval, even though anyone can buy the same part
directly from the third-party manufacturer and then
resell it, as Watermark did. (Trial Tr. I, 70-73, 103.)
Gethin, on the other hand, testified that an OEM
part is one that is identical (same part number, same
manufacturer) to the one in the original equipment. It
does not matter whether the manufacturer of the
equipment approves of the purchase or sale of that
part. Thus, when Watermark purchases and sells the
same Haskel pump that Siemens/Evoqua used in the
original filter press, Watermark is selling an OEM part
for that filter press. Indeed, Evoqua itself used the
term “OEM part” in a manner consistent with
Watermark’s usage. On Evoqua’s website, it advertised
the sale of “OEM parts” for filter presses made by other
entities. (Trial Tr. I, 190.)

App. 60
III. RULE 50: JUDGMENT
AS A MATTER OF LAW
A. Standard
Rule 50 of the Federal Rules of Civil Procedure
permits a court to grant judgment as a matter of law
only if a party has been fully heard on an issue and
there is no legally sufficient evidentiary basis for a
reasonable jury to find for that party on that issue.
Fed. R. Civ. P. 50(a)(1). Phrased differently, the
question is “whether a party has produced evidence
‘legally sufficient’ to warrant a jury determination in
that party’s favor.” Tellabs, Inc. v. Makor Issues &
Rights, Ltd., 551 U.S. 308 n.5 (2007) (quoting Fed. R.
Civ. P. 50(a)(1)). The standard for judgment as a
matter of law under Rule 50 mirrors the standard for
summary judgment under Rule 56 so that in ruling on
a motion for judgment as a matter of law, a court must
consider the entire record and draw all reasonable
inferences in favor of the non-moving party. Reeves v.
Sanderson Plumbing Prods., 530 U.S. 133, 150-51
(2000). A motion for judgment as a matter of law
should be granted “only if reasonable minds could not
come to a conclusion other than one favoring the
movant.” K & T Enters., Inc. v. Zurich Ins. Co., 97 F.3d
171, 176 (6th Cir. 1996). When reviewing a motion for
judgment as a matter of law, a court “does not weigh
the evidence, evaluate the credibility of witnesses, or
substitute its judgment for that of the jury.” Arban v.
West Publishing Corp., 345 F.3d 390, 400 (6th Cir.
2003).

App. 61
B. Applied
1. Trademark Infringement
The verdict form did not ask the jury to distinguish
between the DryMate and J-Mate theories of
infringement. In the Court’s view, a reasonable jury
weighing the relevant factors could have gone for either
side on either theory. The evidence was not so
one-sided that a finding of infringement was necessary
for either one. In both cases, some factors favored
Plaintiff while others favored Defendants.1 That is why
the Court denied summary judgment and sent the
issue to trial. The proofs at trial came in as expected,
and the jury made its choice. There is no reason to
disturb it.
a. Willful Infringement
The jury reasonably determined that any
infringement was not willful, for several reasons. First,
although Defendants were aware of the J-Mate mark,
they believed that Evoqua was not using it for sludge
dryers. Even Evoqua’s own sales representatives
thought that Evoqua was abandoning the business.
They directed customers interested in a J-Mate sludge
dryer to Watermark.
Second, Watermark had reason to use J-Mate fairly
and lawfully. It sold replacement parts for J-Mate
1

Evoqua cites the analysis in this Court’s vacated opinion of
September 12, 2016 to argue that Watermark necessarily infringed
the J-Mate mark. That decision is inapposite because the evidence
before the Court at that stage of the proceedings is significantly
different from the body of evidence presented to the jury.

App. 62
dryers, as well as refurbished J-Mate dryers. It also
sold a sludge dryer that was similar to the J-Mate
dryer. The jury could have reasonably concluded that
Watermark intended to use the term J-Mate to fairly
describe or compare its own products and services,
rather than to confuse customers. Furthermore, given
the size of the purchase, and the lead time for
manufacture, the jury could reasonably have found
that customers were unlikely to be confused about who
was making and selling the machine.
Third, the jury could have determined that any
infringement through use of the name DryMate was
unintentional because Defendants decided on this
name through an informal process at a time when they
believed Evoqua was abandoning the dryer business. In
naming the DryMate sludge dryer, Defendants also
avoided any use of the “J-” prefix that is characteristic
of Evoqua’s trademarks. The jury could reasonably
have weighed these facts against willfulness.
Finally, Watermark stopped using the terms J-Mate
and DryMate soon after learning of Evoqua’s concerns.
The jury could have interpreted this response as
evidence that any infringement was unintentional.
b. Trademark Damages
The jury also reasonably concluded that Evoqua was
not entitled to any damages. To the extent the jury
found that Watermark’s use of J-Mate was infringing,
there was no concrete evidence of harm to Evoqua from
this use. Evoqua’s damages expert did not address this
issue at all. He offered no opinion about Evoqua’s
damages from Watermark’s use of J-Mate and JMate

App. 63
on its website or in its search optimization strategy.
The jury was not required to accept the self-interested
testimony of Evoqua’s employees that Watermark’s
actions harmed Evoqua’s business and goodwill. Thus,
even if the jury found that Evoqua’s use of J-Mate was
infringing, it was not required to find any damages for
that use because Evoqua never even attempted to
quantify any such damages for the jury.
To the extent the jury found that Watermark’s use
of the DryMate name was infringing, the jury could
have reasonably determined that Evoqua was not
entitled to anything for disgorgement of profits, which
is the only theory of damages that Evoqua presented to
the jury. Watermark’s proofs established a loss on the
first dryer sale, and a modest profit on the total of six
sales. Evoqua did not directly attack these proofs with
an alternate lost profits analysis. Instead, it claimed
that it was entitled to Watermark’s gross revenue for
the sale of all six sludge dryers that customers ordered
when Watermark was using the name DryMate.
It was reasonable for the jury to limit the
disgorgement remedy to Watermark’s profits (or lack
thereof) from the sale of the first sludge dryer, because
that was the only dryer that shipped to a customer
with a DryMate label. In other words, even if the sale
of the first DryMate dryer was infringing, the jury
could reasonably have concluded that the other five
sales were not. A reasonable jury could conclude that
the likelihood-of-confusion factors tilt in favor of
Watermark when it used a different mark upon
delivery and completion of the sale of a large and
expensive piece of equipment like a sludge dryer.

App. 64
Evoqua contends that the orders for all six DryMate
dryers are sufficient to demonstrate infringement
under a theory of “initial-interest confusion,” citing
Gibson Guitar Corp. v. Paul Reed Smith Guitars, LP,
423 F.3d 539, 549 (6th Cir. 2005). Evoqua never
presented any evidence of initial-interest confusion,
however. Moreover, in Gibson, the Sixth Circuit made
clear that the core question in initial-interest cases is
the same as in other contexts, i.e., “whether the
consumer might be misled about the source of the
relevant product or service.” Id. at 551. A reasonable
jury could conclude that customers ordering a sludge
dryer would take particular care, and would not be
misled about its source after receiving one with
Watermark’s label on it. Cf. Versa Prods. Co., Inc. v.
Bifold Co. (Mfg.) Ltd., 50 F.3d 189, 213 (3d Cir. 1995)
(“In the case of a relatively high-priced, single-purchase
article, . . . there is hardly likelihood of confusion or
palming off when the name of the manufacturer is
clearly displayed.”) (quotation marks omitted).
c. Gethin’s Personal Liability
Evoqua challenges the jury’s determination Gethin
was not personally liable for any infringement.
Defendants assert that this challenge should be
rejected because Evoqua did not preserve the issue and
because Evoqua’s arguments are meritless. The Court
rejects Evoqua’s motion on the merits and finds it
unnecessary to address the procedural challenge.
The test for infringement is a multi-factor balancing
test. See Frisch’s Rests., Inc. v. Elby’s Big Boy of
Steubenville, Inc., 670 F.2d 642, 648 (6th Cir. 1982).
Some of the factors are the same for both Watermark

App. 65
and Gethin personally. These include things like the
strength of the mark, evidence of actual customer
confusion, and the like. But one factor necessarily
requires a distinct inquiry for each defendant; namely,
“the defendant’s intent in selecting its mark.” Id. The
corporation’s intent is fairly inferred from the total mix
of information available to all the corporate
decision-makers involved. But this does not mean that
everyone involved in a corporate decision is
automatically chargeable with the same knowledge and
intention. If that were the case, individual officer or
decision-maker liability would be automatic in every
case. But the Court is not aware of any case so holding.
“It is well established that a corporate officer or
agent is personally liable for torts committed by him
even though he was acting for the benefit of the
corporation.” A&M Records, Inc. v. MVC Distrib. Corp.,
574 F.2d 312, 315 (6th Cir. 1978). However, the law
does not require that an officer/individual be liable for
every instance of infringement by a corporation. It was
the jury’s job to weigh the facts and law for each
defendant individually. Here, the jury heard from
Gethin personally, and in weighing his testimony
together with all the other information of record, the
jury could reasonably conclude that the corporate
decisions involved were the product of group decisions
within Watermark, and that Gethin’s personal level of
involvement and his personal intentions weighed
against a finding of personal liability. The testimony
indicated that no one spent a lot of time thinking about
the name. Gethin discussed with his salespeople what
names they were using with customers, who at the
time believed that Evoqua was exiting the business.

App. 66
Some reported using “DryMark.” Some used
“DryMate.” The final selection had as much to do with
one salesperson’s opposition to “DryMark” as anything
else. The jury could reasonably have decided to hold
only the company accountable for this and not Gethin
personally.
2. False Advertising
Evoqua’s false-advertising claim boiled down to a
credibility contest between Evoqua’s employees and
Watermark’s President. A reasonable jury could
conclude that Gethin’s testimony was more credible.
That conclusion is supported by Evoqua’s own use of
the term OEM parts on its own website in a manner
consistent with Watermark’s usage.
Accordingly, Evoqua’s motion for judgment as a
matter of law will be denied.
IV. RULE 59: NEW TRIAL
Evoqua seeks a new trial on trademark damages
and willful infringement. Under Rule 59(a) of the
Federal Rules of Civil Procedure, a new trial is
warranted when “a jury has reached a ‘seriously
erroneous’ result as evidenced by: (1) the verdict being
against the weight of the evidence; (2) the damages
being excessive; or (3) the trial being unfair to the
moving party in some fashion, i.e., the proceedings
being influenced by prejudice or bias.” EEOC v. New
Breed Logistics, 783 F.3d 1057, 1066 (6th Cir. 2015)
(quoting Holmes v. City of Massillon, 78 F.3d 1041,
1045-46 (6th Cir. 1996)). Evoqua argues that the
verdict is against the great weight of the evidence.
“[G]ranting a new trial on this ground is a rare

App. 67
occurrence—it happens only when the verdict is said to
be unreasonable.” Armisted v. State Farm Mut. Auto.
Ins. Co., 675 F.3d 989, 995 (6th Cir. 2012).
In Evoqua’s view, the jury disregarded
“uncontroverted evidence” that Watermark earned a
modest profit on the sale of the six DryMate sludge
dryers. (Mot. for New Trial, ECF No. 244,
PageID.8683.) Consequently, according to Evoqua, it is
entitled to disgorgement of those profits, at the very
least. In addition, Evoqua contends that there was “no
legally sufficient evidentiary basis” for a jury to find
anything other than willful infringement. (Mot. for J.
as a Matter of Law or for a New Trial on Willful
Infringement, ECF No. 242, PageID.8661.)
As explained in Section III, the jury’s verdict on
damages was a reasonable one. The jury could have
reasonably determined that only the sale of the first
DryMate dryer infringed the J-Mate mark. This dryer
sold at a loss, so there were no profits to disgorge from
Watermark. To the extent the jury found that
Watermark’s use of J-Mate on its website or in its
search optimization strategy was infringing, Evoqua
never attempted to quantify the harm caused by this
use. Thus, the jury’s verdict was not “seriously
erroneous.”
Likewise, for the many reasons set forth in Section
III, the jury’s verdict on willfulness was a reasonable
one. Thus, a new trial is not warranted.

App. 68
V. OTHER MOTIONS
A. Enhanced Trademark Damages
Evoqua asks the Court to increase the damages
award under 15 U.S.C. § 1117(a). That statute permits
a plaintiff to recover “damages sustained” for
trademark infringement, “subject to the principles of
equity.” Id. When assessing damages, the Court can
“enter judgment, according to the circumstances of the
case, for any sum above the amount found as actual
damages, not exceeding three times such amount.” Id.
The Court cannot award enhanced damages in this
case because the jury found that Evoqua’s actual
damages for trademark infringement is $0. Three times
$0 is still $0, so the statute does not permit
enhancement here.
In addition, equity does not support an
enhancement. “[T]he Lanham Act gives little guidance
on the equitable principles to be applied by a court in
making an award of damages[.]” Synergistic Int’l, LLC
v. Korman, 470 F.3d 162, 174 (4th Cir. 2006). A court
considering whether to increase the damage amount
can consider a “range of factors,” including “the
defendant’s intent to deceive, whether sales were
diverted, the adequacy of other remedies, any
unreasonable delay by the plaintiff in asserting its
rights, the public interest in making the misconduct
unprofitable, and ‘palming off,’ i.e., whether the
defendant used its infringement of the plaintiff’s mark
to sell its own products to the public through
misrepresentation.” La Quinta Corp. v. Heartland
Props. LLC, 603 F.3d 327, 343 (6th Cir. 2010). Here,
there is no evidence that Defendants intended to

App. 69
deceive, that Evoqua’s sales were diverted, or that
Defendants used Evoqua’s marks to sell their own
products through misrepresentation. Moreover, the
jury determined that any infringement was not willful.
Thus, Evoqua’s request for enhanced damages is
denied.
B. Evoqua’s Attorney’s Fees (Lanham Act)
The Lanham Act permits the Court to award
attorney’s fees to the prevailing party in “exceptional
cases.” 15 U.S.C. § 1117(a). This is not such a case. It
does not “stand[] out” from others with respect to the
“substantive strength” of Evoqua’s case or “the manner
in which the case was litigated.” See Octane Fitness,
LLC v. Icon Health & Fitness, Inc., 134 S. Ct. 1749,
1756 (2014) (discussing the meaning of “exceptional
cases” in the identically-worded fee-shifting provision
of the Patent Act, 35 U.S.C. § 285).
The jury’s reasonable findings of no liability for
Gethin; the absence of willful infringement; and $0 in
damages vindicate the core defense case through trial.
Moreover, as the Court has indicated, a reasonable jury
weighing all the relevant factors for infringement could
have decided all the issues in Defendants’ favor. Thus,
an award of attorney’s fees under § 1117(a) is not
warranted.
C. Permanent Injunction
Evoqua requests entry of a permanent injunction
preventing Watermark and its “principals, agents,
servants, employees, attorneys, successors and assigns”
from using Evoqua’s registered trademarks, any mark

App. 70
confusingly similar thereto, or any component portions
thereof. (See Proposed Injunction, ECF No. 241-1.)
Generally, in order to obtain a permanent
injunction, a party must demonstrate: “(1) that it has
suffered an irreparable injury; (2) that remedies
available at law, such as monetary damages, are
inadequate to compensate for that injury; (3) that,
considering the balance of hardships between the
plaintiff and defendant, a remedy in equity is
warranted; and (4) that the public interest would not
be disserved by a permanent injunction.” eBay Inc. v.
MercExchange, LLC, 547 U.S. 388, 391 (2006). “The
decision to grant or deny permanent injunctive relief is
an act of equitable discretion by the district court[.]” Id.
Here, the factors weigh against a permanent
injunction.
1. Irreparable injury
Irreparable injury “ordinarily follows when a
likelihood of confusion or possible risk to reputation
appears” from trademark infringement. Wynn Oil Co.
v. Am. Way Serv. Corp., 943 F.2d 595, 608 (6th Cir.
1991). In this case, Watermark stopped using the term
DryMate in 2016. This was two years before the jury’s
verdict, and immediately in response to Evoqua’s
concerns. Watermark has used a different name ever
since. It also removed pages on its website referring to
J-Mate shortly after Watermark raised its concerns. In
other words, Evoqua effectively obtained the relief it
now seeks for almost two years, which diminishes the
risk of future harm and obviates the need for an
injunction to remedy past harm.

App. 71
Evoqua is wrong to characterize Watermark as a
“recalcitrant” party who has repeatedly violated the
law. It is true that Gethin and Watermark entered into
a settlement agreement and consent judgment with
JWI in 2003, in which Gethin and Watermark agreed
not to use marks containing a “J-” prefix. However, no
court ever found that Gethin or Watermark had
infringed JWI’s trademark rights. Instead, Gethin and
Watermark ceased the conduct that JWI complained
about and settled the case. Here, too, Gethin and
Watermark ceased the allegedly infringing conduct in
response to Evoqua’s concerns. Thus, the Court cannot
discern a likelihood of confusion or risk to Evoqua’s
reputation in the absence of an injunction. This factor
weighs in Watermark’s favor.
2. Adequate remedy
The Court does not discern a need for equitable
relief in addition to the damages award that Evoqua
sought. The jury reasonably concluded that Evoqua
was not entitled to any damages, which undercuts
Evoqua’s claim that it suffered any meaningful harm
from Watermark’s actions. In addition, as indicated
above, Defendants stopped using the terms J-Mate and
DryMate some time ago. An injunction at this stage
would do little to remedy harm done in 2014 and 2015.
Thus, this factor also weighs in Watermark’s favor.
3. Balance of hardships
Evoqua purportedly seeks to ensure that
Watermark will respect Evoqua’s trademark rights,
which the law already requires of Watermark. To the
extent the injunction follows the requirements of the

App. 72
law, it does not impose a hardship on Watermark. But
the proposed injunction does more. It imposes stringent
restrictions and requirements on Watermark’s use of
Evoqua’s trademarks, even where such use would not
be confusing because it fairly describes products sold by
Watermark, including replacement parts for the
J-Mate dryer and refurbished J-Mate dryers.
On the other side of the scale, there does not appear
to be a significant risk of hardship to Evoqua in the
absence of an injunction. Thus, the balance of
hardships favors Watermark.
4. Public interest
The public’s interest would be disserved by the
proposed injunction. Evoqua and Watermark are
competitors. The public would not be served by a
judicial order hindering Watermark’s ability to fairly
compete with Evoqua in the marketplace.
In short, the balance of factors favors Watermark.
Accordingly, the Court will not issue a permanent
injunction.
D. Watermark’s Attorney’s Fees (Copyright
Act, Lanham Act)
Watermark asks for reimbursement of its attorney’s
fees under the Copyright Act and the Lanham Act.
1. Copyright Act
The Copyright Act permits a court, in its discretion,
to award reasonable attorney’s fees to the “prevailing
party.” 17 U.S.C. § 505. Watermark is the prevailing
party for Evoqua’s claim of copyright infringement. The

App. 73
Court dismissed Evoqua’s claim after concluding that
Evoqua could not demonstrate ownership of the
copyrights at issue.
The Court may not award attorney’s fees “‘as a
matter of course’; rather, a court must make a
[]particularized, case-by-case assessment.” Kirtsaeng v.
John Wiley & Sons, Inc., 136 S. Ct. 1979, 1985 (2016)
(quoting Fogerty v. Fantasy, Inc., 510 U.S. 517, 533
(1994)). The Court can consider “‘several non-exclusive
factors’” when making this assessment, including
“‘frivolousness, motivation, objective
unreasonableness[,] and the need in particular
circumstances to advance considerations of
compensation and deterrence.’” Id. (quoting Fogerty,
510 U.S. at 534 n.19). The Court “may not treat
prevailing plaintiffs and prevailing defendants any
differently,” but otherwise the Court has “wide
latitude” to award fees based on the “totality of
circumstances in a case” and “in light of the Copyright
Act’s essential goals.” Id. at 1985, 1989.
The Court declines to award fees to Watermark in
this instance. Evoqua’s claim was not frivolous or
unreasonable. Watermark has never denied using any
of the works at issue, and there does not seem to be a
genuine dispute that at least some of those works are
protected by copyright. Although Evoqua failed to prove
ownership of the copyrights, its litigating position was
not objectively unreasonable. It did acquire some
intellectual property assets (including trademarks,
know-how, and software) from the previous owner of its
business; its claim failed because it could not show that

App. 74
it acquired the particular assets necessary to bring its
copyright claim.
Moreover, Watermark prevailed on the eve of trial
only after the Court prompted the parties to provide
further briefing regarding Evoqua’s ownership of the
copyrights. Earlier in the case, Watermark had
apparently tried to obtain information from Evoqua
about the chain of ownership of the copyrights, but
Evoqua objected to Watermark’s request. Watermark
did not bring this discovery dispute to the Court’s
attention, however. The Court might have resolved the
copyright claim much sooner, and with less expense to
the parties, if Watermark had done so.
Furthermore, there is no indication that Evoqua’s
motive for bringing its claim was wholly improper. By
its own admission, Watermark obtained many
materials from former Siemens/Evoqua employees, and
possessed a trove of manuals for Evoqua products that
Watermark copied, rebranded, and sold to its own
customers. It was not unreasonable for Evoqua to view
this as a concern, and to try to enjoin and/or seek
recompense for Watermark’s actions. Some of the
evidence at trial suggested that Evoqua brought this
action to squash a smaller market competitor, but
there can be legitimate competitive reasons for
enforcing legal rights against a competitor. Even if
Watermark is a mosquito to an Evoqua elephant, the
elephant is entitled to swat the mosquito when it tries
to bite.
Finally, there is no compelling reason to award fees
for purposes of compensation or deterrence. In short,
considering all the circumstances, the Court will not

App. 75
award Watermark its attorney’s fees under the
Copyright Act.
2. Lanham Act
As indicated above, the Lanham Act permits the
Court to award attorney’s fees to the prevailing party
in “exceptional cases.” 15 U.S.C. § 1117(a). Watermark
is the prevailing party for Evoqua’s false-advertising
claim.2 Fees are not warranted, however, because this
case does not “stand[] out” from others with respect to
the “substantive strength” of Evoqua’s claim or the
manner in which the case was litigated. See Octane
Fitness, LLC, 134 S. Ct. at 1756.
Regarding the strength of the claim, the parties and
their respective employees simply disagreed about the
definition of a term that could mean different things in
different contexts. Both parties’ positions were
plausible. In fact, Evoqua survived a motion for
summary judgment on the issue. At trial, the parties
essentially left the jury to decide which of their
respective, self-interested witnesses were more
credible. Neither party provided objective expert
testimony or evidence for the jury to consider. Thus,
Evoqua’s claim was not so weak as to be exceptional.
Evoqua was not able to provide evidence of damages
from Watermark’s conduct; however, monetary
damages are not always easy to prove in

2

To the extent Watermark or Gethin can also be considered the
prevailing party on some or all of the trademark claims, the Court
would make the same determination that a fee award is not
warranted, for essentially the same reasons discussed herein.

App. 76
false-advertising cases, and sometimes an injunction is
the only appropriate remedy. See Lexmark Int’l, Inc. v.
Static Control Elements, Inc., 572 U.S. 118, 135 (2014)
(“Even when a plaintiff cannot quantify its losses with
sufficient certainty to recover damages, it may still be
entitled to injunctive relief under [15 U.S.C.
§ 1116(a).]”). Evoqua sought an injunction as well as
damages. It was not unreasonable for Evoqua to pursue
this relief even in the absence of concrete evidence of
monetary harm.
Watermark notes that it changed its website in
response to Evoqua’s concerns; however, corrective
actions do not immunize a defendant from possible
liability for past conduct. Nor do they guarantee that
the defendant will avoid infringing conduct in the
future. Thus, Watermark’s actions did not undercut the
strength of Evoqua’s case or impeach Evoqua’s motive
for bringing it.
Regarding the manner in which Evoqua litigated
the case, and the asserted anti-competitive purpose in
doing so, the Court does not find a basis for shifting
fees. Watermark complains that Evoqua made several
discovery requests that were more broad than
necessary. However, there is no indication that
Evoqua’s requests meaningfully added to Watermark’s
fees or expenses. Watermark simply objected to these
requests and did not comply. There was definitely some
evidence at trial suggesting that Evoqua thought that
litigation was warranted simply because Evoqua could
absorb the costs more easily than Watermark. But even
if true, this does not detract from the good faith basis
Evoqua had to pursue its claims. Evoqua did prevail on

App. 77
one of its claims—albeit without winning money
damages. And the jury could reasonably have decided
the other claims differently than in its verdict.
In short, after considering all the circumstances, the
Court will not award Watermark its attorney’s fees.
VI. CONCLUSION
Plaintiff and Defendants are not only business
competitors, but also stepchildren, in a way, fighting
about the original business of a common corporate
ancestor, JWI, Inc. Maybe the original family
connections help explain why the parties appear locked
in perpetual and mortal combat over what seems to
outside observers—including most importantly, the
jury—to be of limited economic value.
In the Court’s view, both sides would be better
served by ending their litigation and re-focusing their
competitive energies in the marketplace. The Court
sees the jury verdict as sending the same basic
message. The Court sees no lawful basis on which to
disturb the verdict, and no legal or equitable basis on
which to grant additional relief to either party.
An order will enter consistent with this Opinion.
Dated: November 5, 2018
/s/ Robert J. Jonker
ROBERT J. JONKER
CHIEF UNITED STATES DISTRICT JUDGE

App. 78
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Case No. 1:16-cv-14
Honorable Robert J. Jonker
[Filed November 5, 2018]
__________________________
EVOQUA WATER
)
TECHNOLOGIES LLC,
)
)
Plaintiff,
)
)
v.
)
)
M.W. WATERMARK,
)
LLC, et al.,
)
)
Defendants.
)
__________________________ )
ORDER
In accordance with the Opinion entered this date:
IT IS ORDERED that Plaintiff’s motion for a
permanent injunction (ECF No. 241), motion for
judgment as a matter of law and/or a new trial on
willful infringement, and for attorney’s fees, costs, and
enhanced damages (ECF No. 242), motion for judgment
as a matter of law that Gethin is personally liable for
trademark infringement (ECF No. 243), motion for a
new trial on damages (ECF No. 244), and motion for
judgment as a matter of law that Defendants are liable
for false advertising (ECF No. 245) are DENIED.

App. 79
IT IS FURTHER ORDERED that Defendants’s
motion for attorney’s fees (ECF No. 247) is DENIED.
Dated: November 5, 2018
/s/ Robert J. Jonker
ROBERT J. JONKER
CHIEF UNITED STATES DISTRICT JUDGE

App. 80
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Case No. 1:16-cv-14
Honorable Robert J. Jonker
[Filed November 5, 2018]
__________________________
EVOQUA WATER
)
TECHNOLOGIES LLC,
)
)
Plaintiff,
)
)
v.
)
)
M.W. WATERMARK,
)
LLC, et al.,
)
)
Defendants.
)
__________________________ )
JUDGMENT
In accordance with the Jury Verdict (ECF No. 239),
the Opinion and Order entered this date, and the
Opinion and Order on Summary Judgment (ECF Nos.
217 and 218), the Court enters Judgment in favor of
Plaintiff Evoqua Water Technologies LLC and against
Defendant M.W. Watermark, LLC, in the amount of $0
for Plaintiff’s claim of trademark infringement.
The Court enters Judgment in favor of Defendant
Michael Gethin and Defendant Watermark, and
against Plaintiff, on all other claims.

App. 81
Dated: November 5, 2018
/s/ Robert J. Jonker
ROBERT J. JONKER
CHIEF UNITED STATES DISTRICT JUDGE

App. 82

APPENDIX C
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
CASE NO. 1:16-CV-14
HON. ROBERT J. JONKER
[Filed April 12, 2018]
_____________________________
EVOQUA WATER
)
TECHNOLOGIES LLC,
)
)
Plaintiff,
)
)
v.
)
)
M.W. WATERMARK, LLC,
)
MICHAEL GETHIN,
)
)
Defendants.
)
_____________________________ )
VERDICT FORM
A. Trademark Infringement
1. Do you find that Plaintiff Evoqua Water
Technologies LLC (“Evoqua”) has proven by a
preponderance of the evidence that any of the
Defendants violated the Lanham Act by trademark
infringement?

App. 83
T Yes ____ No
If your answer is “no,” skip to Section B, and do not
answer any other questions in this Section A.
If your answer is “yes,” proceed to questions 2, 3, 4 and
5 in this Section A.
2. Mark below each Defendant that Evoqua has
proven by a preponderance of the evidence violated the
Lanham Act by trademark infringement.
T M.W. Watermark, LLC
____ Michael Gethin
3. State the amount of any actual damages (other
than any disgorgement of defendant’s profits awarded
in question 4) that you find Evoqua is entitled to
recover for damages because of Defendants’ trademark
infringement:
$ 0.00
4. State the amount of any disgorgement of
defendants’ profits (other than any actual damages
awarded in question 3) that you find Evoqua is entitled
to recover because of Defendants trademark
infringement:
$ 0.00
5. Do you find that the trademark infringement was
willful?
____ Yes T No

App. 84
B. False Advertising
1. Do you find that Plaintiff Evoqua has proven by
a preponderance of the evidence that any of the
Defendants violated the Lanham Act by false
advertising?
____ Yes T No
If your answer is “no,” do not answer any more
questions in this Section B. Have your foreperson sign
and date the Verdict Form, and advise the Jury Officer
that you have reached a verdict. If your answer is “yes,”
proceed to answer questions 2, 3, 4 and 5 in this
Section B.
2. Mark below each Defendant that Evoqua has
proven by a preponderance of the evidence violated the
Lanham Act by false advertising.
____ M.W. Watermark, LLC
____ Michael Gethin
3. State the amount of any actual damages (other
than any disgorgement of defendant’s profits awarded
in question 4) that you find Evoqua is entitled to
recover for damages because of Defendants’ false
advertising:
$ ____
4. State the amount of any disgorgement of
defendants’ profits (other than any actual damages
awarded in question 3) that you find Evoqua is entitled
to recover because of Defendants false advertising:
$ ____

App. 85
5. Do you find that the false advertising was willful?
____ Yes ____ No
Dated: 4/12/18

/s/
JURY FOREPERSON

App. 86

App. 87

App. 88

APPENDIX D
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Case No. 1:16-cv-14
Honorable Robert J. Jonker
[Filed March 26, 2018]
__________________________
EVOQUA WATER
)
TECHNOLOGIES LLC,
)
)
Plaintiff,
)
)
v.
)
)
M.W. WATERMARK,
)
LLC, et al.,
)
)
Defendants.
)
__________________________ )
OPINION
Defendants Michael Gethin and M.W. Watermark,
LLC have filed a motion for summary judgment (ECF
No. 158) as to Counts II (trademark infringement), IV
(false advertising), and V (copyright infringement) of
the First Amended Complaint. On January 11, 2018,
the Court denied the motion as to Counts II and IV,
and took the motion under advisement as to Count V.

App. 89
The Court permitted the parties to provide further
briefing regarding Evoqua’s claim of ownership in the
copyrights at issue. The parties have done so. After
review of the briefs, the Court finds that Defendants
are entitled to summary judgment on Count V.
I.

Summary Judgment Standard

Summary judgment is appropriate where there are
no genuine issues of material fact and the moving party
is entitled to judgment as a matter of law. Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248 (1986); Fed. R.
Civ. P. 56(c). An issue of fact is “genuine” if a
reasonable jury could return a verdict for the
non-moving party. Anderson, 477 U.S. at 284. In
considering a motion for summary judgment, the Court
must draw all reasonable inferences in favor of the
nonmoving party. Matsushita Elec. Indus. Co. v. Zenith
Radio Corp., 475 U.S. 574, 587 (1986). The ultimate
question is “whether the evidence presents a sufficient
disagreement to require submission to a jury or
whether it so one-sided that one party must prevail as
a matter of law.” Anderson, 477 U.S. at 251-52; see also
Jones v. Potter, 488 F.3d 397 (6th Cir. 2007).
II.

Background

Evoqua and Watermark are competitors in the
de-watering business. In October 2015 and May 2016,
Evoqua obtained copyright registrations for the
following works:
• a presentation entitled “How Does a Filter
Press Work?” (created in 2006);

App. 90
• a presentation entitled “Filter Presses”
(created in 2001);
• a sales brochure entitled “J-Press
Liquids-Solids Filtration Equipment and
Separation Equipment (created in 1985);
• a manual entitled “J-Press Filter Press 1200
MM Owner’s Manual” (created in 1989);
• a manual entitled “J-Press Filter Press 630
MM Owner’s Manual” (created in 1994);
• a drawing entitled “Automatic Pump Control
System Cabinet Assembly” (created in 1994);
and
• a drawing entitled “Automatic Pump Control
System with Air Blowdown” (created in
1989).
In Count V of its amended complaint, Evoqua
contends that Watermark has infringed Evoqua’s
rights in these works. “The first element of a
copyright-infringement claim is ‘ownership of a valid
copyright.’” Star Athletica, LLC v. Varsity Brands, Inc.,
137 S. Ct. 1002, 1008 (2017) (quoting Feist Publ’ns, Inc.
v. Rural Tel. Serv. Co. 499 U.S. 340, 361 (1991)). As the
plaintiff claiming copyright infringement, Evoqua has
the burden of proving ownership. Hi-Tech Video Prods.,
Inc. v. Capital Cities/ABC, Inc., 58 F.3d 1093, 1095
(6th Cir. 1995). The Court concludes that Evoqua
cannot, as a matter of law, establish actual ownership
of the copyrights on this record.

App. 91
Ownership of a copyright “vests initially in the
author or authors of the work.” 17 U.S.C. §201(a).
Evoqua could not have been the author of the foregoing
works because it did not exist until 2013, long after the
works were created. Accordingly, Evoqua must stake
its claim on having properly acquired ownership from
the original authors through any intervening entities.
For purposes of summary judgment, the Court will
assume that the original human authors properly
assigned the work to the entity for which they worked
at the time of creation. The controlling question is then
whether a reasonable jury could find that Evoqua has
an unbroken chain of ownership through the series of
transactions leading from the original owner to the
creation of Evoqua in 2013.
The chain of transactions begins with JWI, Inc. In
1997, U.S. Filter Wastewater Group, Inc. acquired the
stock of JWI, Inc. and certain assets from its owners.
(See Acquisition Agreement, ECF No. 172-1.) JWI, Inc.
subsequently changed its name to U.S. Filter/JWI, Inc.
In 2006, U.S. Filter/JWI, Inc. merged into Siemens
Water Technology Corporation, which merged into
Siemens Water Technology Holding Corporation, which
later merged into Siemens Industry, Inc. In 2013,
Siemens Industry, Inc. split itself into pieces. It
assigned certain assets of its water-technologies
business division to a new entity named Siemens
Water Technologies LLC, which later changed its name
to Evoqua Water Technologies LLC (the plaintiff in this
action).
Watermark has identified several potentially
defective links in the chain of ownership of the

App. 92
copyrights, including: (1) the link from the human
authors of the works to the entity in existence at the
time of authorship; (2) the link from JWI to U.S. Filter;
and (3) the link from Siemens Industry to Siemens
Water Technologies. Watermark also suggests that
there may be other defective links that it has not been
able to explore because Evoqua has objected to
disclosure of the transactions by which it obtained
ownership of the assets of JWI, Inc. (See Evoqua Resp.
to Interrog. No. 16, ECF No. 169-2.) A defect in any one
of these links poses a potential problem for Evoqua.
The Court will address only the link in 2013 from
Siemens Industry to Siemens Water Technologies,
because the break in that link is fatal to Evoqua’s
claim.
III.

Analysis

The document memorializing the transfer of certain
assets from Siemens Industry to Siemens Water
Technologies is the Carve-Out Agreement. (Carve-Out
Agreement, U.S. Filter/JWI, Inc. v. J-Parts, LLC, No.
5:03-cv-127, ECF No. 48-1.) Section 1.1 of this
agreement contains a broad assignment of “all of
Seller’s right, title and/or interest” in all assets
“exclusively pertaining to the [water-technologies
business].” (Id., PageID.779.) This section does not
transfer any intellectual property rights, however. It
expressly excludes “IP . . . , trademarks and their
applications, domains and any other intellectual
property rights[.]” (Id.)
The disposition of intellectual property is reserved
for Section 2. (See Carve-Out Agreement, Section
2.10.4, PageID.793 (stating that “the transfer of, and

App. 93
grant of rights under, IP shall occur exclusively on the
basis of this Section 2”.) Sections 2.1 through 2.4 assign
different categories of intellectual property assets.
“Patents and Trademarks” are covered in Section 2.1,
“know-how” in Section 2.2, “software” in Section 2.3,
and “domains” in Section 2.4. (Id., PageID.782-784.)
There is no section devoted expressly to copyrights, and
nothing in any portion of Section 2 that affirmatively
and expressly transfers copyrights or copyrightable
works by name.
Evoqua contends that the copyrights at issue are
covered by more generic language in Section 2.2, which
provides, in relevant part:
Sale and Assignment of Know-how. . . . Seller
hereby sells and assigns to Purchaser all
information and data (irrespective as to whether
such information and data is available by way of
documentation, orally or in electronic format and
irrespective as to whether they are protected by
copyrights or not), including business and trade
secrets, technical and business information and
data, inventions, experience and expertise, all to
the extent that such information and data are
not Software (as defined in Section 2.3 below)
and/or not a Patent (collectively herein “Knowhow” which (i) is exclusively used by the
Business in the Business Field on the Effective
Date, and (ii) which Seller has the exclusive
authority to dispose of on the Effective Date
(herein “Transferred Know-how”. . . . The
Parties agree that the documentation in which
the Transferred Know-how is embodied is

App. 94
already available in the Business and a separate
handover of such documentation is therefore not
necessary. Should Purchaser within twenty-four
(24) months after the Effective Date and on a
case-by-case basis nevertheless need a copy of a
part of the Transferred Know-how for the
operation of the Business, Seller shall, upon
written request of Purchaser, provide Purchaser
with such copy to the extent available at Seller.
(Id., PageID.783-784 (italics added).) In other words,
Evoqua contends that when Siemens Industry assigned
all “information and data”exclusively used by its
water-technologies business, it was assigning the
copyrights in the product manuals, drawings, and
presentations allegedly infringed by Watermark. The
Court disagrees, for several reasons.
First, the phrase “information and data” is an odd
container for copyrights, because information and data,
standing alone, are generally considered to be outside
the scope of copyright protection. See Feist Publ’ns 499
U.S. at 344 (“F]acts are not copyrightable[.]”; 17 U.S.C.
§102(b) (“In no case does copyright protection for an
original work of authorship extend to any idea,
procedure, process, system, method of operation,
concept, principle, or discovery, regardless of the form
in which it is described, explained, illustrated, or
embodied in such work.”). It is only the specific manner
in which information or data is expressed or arranged
in an original work that is copyrightable. See id. at 348
(“[A] directory that contains absolutely no protectible
written expression, only facts, meets the constitutional
minimum for copyright protection if it features an

App. 95
original selection or arrangement.”); see also Computer
Assocs. Int’l, Inc. v. Altai, Inc. 982 F.2d 693, 703 (2d
Cir. 1992) (“It is a fundamental principle of copyright
law that a copyright does not protect an idea, but only
the expression of the idea.”); 17 U.S.C. §102(a)
(defining copyrightable subject matter as “original
works of authorship fixed in any tangible medium of
expression” (emphasis added)).
Second, there is a difference between assigning
information and data and assigning ownership in the
work embodying that information and data. Assigning
one does not necessarily imply an assignment of the
other. This distinction between “information and data”
and the (potentially copyrightable) work in which that
information/data is fixed is apparent in the Carve-Out
Agreement itself. Section 2.2 refers to “documentation”
in which the “know how”assigned by Siemens Industry
is “embodied.” (Carve-Out Agreement, PageID.784.)
Tellingly, the agreement assigns only the information
and data. It does not assign ownership in the
documentation itself. The parties clearly intended for
a copy of this documentation to be “available” to
Siemens Water Technologies, but granting a right to
use the documentation (in effect, a license) for the
purpose of accessing the information and data is not
equivalent to transferring ownership in the
documentation.
Third, as every patron of a bookstore knows,
transferring ownership of a copy of a work is not
equivalent to transferring ownership in the copyright
to that work. Thus, even if the agreement could be
construed to transfer ownership in the documentation

App. 96
and other works embodying the information and data,
there is no indication that the parties intended to
transfer the copyright in those works. Copyright is the
author’s (or assignee’s) power to prevent others from
reproducing the work. The “information and data”
transfer provision does not even hint at this. It is
devoted exclusively to ensuring that Siemens Water
Technology can itself make use of information and
data, as well as any embodied versions of it.
Fourth, the clause specifying that the information
and data are assigned “irrespective as to whether they
are protected by copyrights or not” further indicates
that copyrights are not the object of the assignment. In
other words, the information and data being
transferred may or may not be protected by copyright
but it is the information and data that are assigned,
not the copyright itself. To read this section the way
Evoqua contends would convert a clarifying phrase into
an affirmative grant of additional rights.
Fifth, the types of property expressly identified in
Section 2.2 as examples of what is being transferred by
that section are different from copyrights. Section 2.2
purports to transfer “know-how,” and it gives the
following examples of what this includes: “business and
trade secrets, technical and business information and
data, inventions, experience and expertise.” Know-how,
trade secrets, inventions, experience, and expertise
may each be a form of intangible property, but they are
not copyrights.
Sixth, the scope of the language of assignment in
Section 2.2 is more narrow than what can be found
elsewhere in the agreement. Section 1 assigns “all

App. 97
right, title, and interest” in certain assets, whereas
Section 2.2 merely “assigns” the information and data
constituting know-how. This case might be a closer call
if the agreement assigned “all right, title, and interest”
in the information and data. One could argue, perhaps,
that “all, right, title, and interest” in information and
data would include any copyrights protecting that
information and data. But the drafters of the
agreement chose not use such broad language in
Section 2.2. The Court assumes that this choice was
intentional.
The narrow language of assignment in Section 2.2
is consistent with Section 1.1.4, which transfers all
right, title, and interest in “Seller’s books and records,
files and other documents and data (including written
and electronic training materials utilized to train the
employees of the Business . . . )[.]” (Id., PageID.780.)
Section 1.1.4 might have been a natural place to
transfer the copyrights in the manuals and
presentations created by earlier entities, but the
agreement carefully avoids doing so. Section 1.1.4
expressly excludes documents and data “constituting,
containing, or relating to Patents, Know-How,
Software, trademarks and their applications, domains
and any other intellectual property rights[.]” (Id.
(emphasis added).) Accordingly, when transferring the
sort of materials that Evoqua now seeks to protect,
Siemens Industry chose not to transfer any copyrights
in those materials.
Seventh, the agreement contains a separate
provision transferring a potentially copyrightable work.
Section 2.3 assigns software to Siemens Water

App. 98
Technologies. If, as one of Evoqua’s employees contends
in his affidavit, “Section 2.2 was intended to convey all
rights in copyrightable and non-copyrightable works to
Siemens Water Technologies, LLC” (Wilderer Decl.,
ECF No. 162-8, PageID.7286), then there would have
been no need for Section 2.3. The existence of Section
2.3 confirms that the parties did not intend for Section
2.2 to cover copyrights.
In short, the Carve-Out Agreement transfers
several different categories of intellectual property to
the new entity (now Evoqua) created in 2013. With the
possible exception of the software described in Section
2.3, copyright is not one of them. There are a number
of plausible explanations for why the parties might
have agreed to this arrangement. Perhaps they did not
deem any copyrightable works (other than the
software) to be significant for the business. Or perhaps
Siemens Industry was not confident that it owned the
copyrights to the product manuals and other works
created for its predecessors.1 But whatever the reason,
Siemens Industry’s failure to assign those rights in the
Carve-Out Agreement defeats Evoqua’s claim of
copyright infringement.
Evoqua attempts to avoid this result in several
ways, none of which are effective. First, it offers the
affidavits of its own employees, and of an employee of
Siemens Industry, who assert that Section 2.2 of the
Carve-Out Agreement intended to convey all rights in

1

In its briefing, Watermark raises legitimate questions about
whether Siemens Industry’s predecessors authored the works or
obtained the copyrights from those who did.

App. 99
copyrightable works to Siemens Water Technologies.
(Wilderer Decl., ECF No. 162-8; Ganzi Decl., ECF No.
170-2; Wallace Decl., ECF No. 170-1.) The Court cannot
consider these affidavits, however, unless it finds that
the language of the Carve-Out Agreement is
ambiguous.
The Carve-Out Agreement contains a choice-of-law
provision stating that the agreement is to be “governed
by, and construed in accordance with, the laws of
Delaware[.]” Carve Out Agreement, Section 17.) When
interpreting a contract, Delaware courts adhere to the
familiar parol evidence rule, which “give[s] priority to
the parties’ intentions as reflected in the four corners
of the agreement.” GMG Capital Investments, LLC v.
Athenian Venture Partners I, LP, 36 A.3d 776, 779 (Del.
2012). “The Court will interpret clear and unambiguous
terms according to their ordinary meaning.” Id. at 780.
“Where a contract is ambiguous, ‘the interpreting court
must look beyond the language of the contract to
ascertain the parties’ intentions.’” Id. (quoting Eagle
Indus., Inc. v. DeVilbiss Health Care, Inc., 702 A.2d
1228, 1232 (Del. 1997)). “[A]n ambiguity exists ‘[w]hen
the provisions in controversy are fairly susceptible of
different interpretations or may have two or more
different meanings.’” Id. (quoting Eagle Indus., 702
A.2d at 1232).
“The question of whether the language of an
agreement is ambiguous is a question of law.” United
States v. Donovan, 348 F.3d 509, 512 (6th Cir. 2003). “If
a contract contains ambiguities, it generally becomes
the task of the fact-finder to use extrinsic evidence to
determine the intent of the parties.” Royal Ins. Co. of

App. 100
Am. v. Orient Overseas Container Line Ltd., 525 F.3d
409, 422 (6th Cir. 2008); see also GMG Capital
Investments, 36 A.3d at 783. (“[W]here reasonable
minds could differ as to the contract’s meaning, a
factual dispute results and the fact-finder must
consider admissible extrinsic evidence.”). In this case,
the Court discerns no ambiguity in the four corners of
the Carve-Out Agreement as it pertains to the
assignment of copyrights. Thus, the self-serving
affidavits offered by Evoqua are irrelevant.
Next, Evoqua contends that Watermark cannot
raise ownership as a defense to copyright infringement,
citing Eden Toys, Inc. v. Florelee Undergarment Co.,
697 F.2d 27 (2d Cir. 1982), John G. Danielson, Inc. v.
Winchester-Conant Properties, Inc., 186 F. Supp. 2d 1
(D. Mass. 2002), and similar cases. According to the
court in John G. Danielson, “when an author and a
transferee do not dispute the ownership of a copyright
interest, a third party may not raise the issue of
copyright ownership as a defense to a claim that it
infringed the copyright.” 186 F. Supp. 2d at 12.
Similarly, in Eden Toys, the Second Circuit noted that
in cases “in which the copyright holder appears to have
no dispute with its licensee [over ownership of the
copyright interest], it would be anomalous to permit a
third party infringer to invoke [17 U.S.C. §204(a)]
against the licensee.” Eden Toys 697 F.2d at 36.
Evoqua contends that, because there is no dispute
between Siemens Industry and Evoqua as to who owns
the copyrights at issue, Watermark should not be able
to use the terms of the agreement between them to
contest Evoqua’s ownership of those copyrights.

App. 101
The principle in Eden Toys does not apply here. In
that case, the court focused on the statute of frauds in
17 U.S.C. §204(a), which requires that transfers of
interests in copyrights be made in writing. The
defendant apparently claimed that the plaintiff did not
have the right to sue for infringement because the
plaintiff had obtained its interests via an informal
arrangement. Eden Toys, 697 F.2d at 36. The court
opined that a third-party infringer should not be able
to use §204(a) to challenge an informal assignment of
rights, where that assignment was later confirmed by
the parties in writing. According to the court:
the purpose of [section 204(a)] is to protect
copyright holders from persons mistakenly or
fraudulently claiming oral licensees, the “note or
memorandum of the transfer” need not be made
at the time when the license is initiated; the
requirement is satisfied by the copyright owner’s
later execution of a writing which confirms the
agreement.
Eden Toys, 697 F.2d at 36.
Unlike the defendant in Eden Toys, Watermark is
not attempting to enforce the “writing” requirement of
section 204(a). Watermark does not claim that Evoqua
or its predecessors failed to put the copyright
assignment in writing. Instead, Watermark claims that
the written agreement relied upon by Evoqua did not
actually assign the copyrights. Thus, Eden Toys does
not apply. Cf. Tempest Publ’g v. Hacienda Records &
Recording Studio, Inc. No. H-12-736, 2013 WL
5964516, at *13 (S.D. Tex. Nov. 7, 2013) (distinguishing
Eden Toys where the original agreements were “valid

App. 102
and sufficient writings under § 204(a),” but they did not
transfer rights to the copyrights at issue).
John G. Danielson is also inapplicable. In that case,
the court found that a written agreement properly
transferred the copyrights at issue to the plaintiff. 186
F. Supp. 2d at 12. The court cited the rule in Eden Toys
merely to reinforce this finding, because the parties to
the agreement later affirmed that the rights had been
transferred. Id.
Here, in contrast, the Carve-Out Agreement did not
transfer the copyrights at issue. Thus, unlike the John
G. Danielson case, there is no prior agreement
assigning the copyrights that Evoqua and Siemens
Industry can affirm. Their affidavits do not change the
meaning of the Carve-Out Agreement.
Evoqua also relies on a “presumption” that it owns
the copyrights because it has registered them with the
Copyright Office. A certificate of registration “made
before or within five years after first publication of the
work” is “prima facie evidence of the validity of the
copyright and of the facts stated in the certificate.” 17
U.S.C. §410(c). Consequently, a certificate
denominating a party as the author and copyright
claimant is “prima facie” evidence of its ownership of
the copyright. BancTraining Video Sys. v. First Am.
Corp., No. 91-5340, 1992 WL 42345, at *3 (6th Cir.
Mar. 3, 1992).
The parties dispute whether this presumption
applies because there is evidence indicating that
Evoqua obtained its registrations more than five years
after publication of its works. In any case, whatever

App. 103
presumption of ownership that Evoqua enjoys by virtue
of its registrations has been rebutted by the Carve-Out
Agreement.
Finally, Evoqua argues that the Court must decide
whether the copyright registrations are valid before it
can decide whether Evoqua owns the copyrights at
issue. According to Evoqua, the validity of its copyright
registrations is a “jurisdictional question” requiring
priority of treatment. (Evoqua’s Br., ECF No. 170,
PageID.7468.) Evoqua is mistaken. The registration
requirement in the Copyright Act is a precondition to
filing suit; it is not a jurisdictional requirement. Reed
Elsevier, Inc. v. Muchnick, 559 U.S. 154, 166 (2010).
Moreover, the Court need not decide whether the
registrations are invalid because Evoqua’s inability to
demonstrate ownership of the copyrights resolves its
claim of copyright infringement against Watermark.
IV.

Conclusion

For the reasons stated herein, the Court will grant
Defendants’ motion for summary judgment as to Count
V of the First Amended Complaint. There is no genuine
dispute that Evoqua does not own the copyrights that
it seeks to enforce against Watermark. Consequently,
Evoqua’s claim of copyright infringement must fail.
In addition, the Court will unseal the Carve-Out
Agreement, because that agreement is central to the
Court’s analysis in this Opinion, and the public has a
right to know the basis for the Court’s decision.
The Court will enter an Order consistent with this
Opinion.

App. 104
Dated: March 26, 2018
/s/ Robert J. Jonker
ROBERT J. JONKER
CHIEF UNITED STATES DISTRICT JUDGE

App. 105
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Case No. 1:16-cv-14
Honorable Robert J. Jonker
[Filed March 26, 2018]
__________________________
EVOQUA WATER
)
TECHNOLOGIES LLC,
)
)
Plaintiff,
)
)
v.
)
)
M.W. WATERMARK,
)
LLC, et al.,
)
)
Defendants.
)
__________________________ )
ORDER
In accordance with the Opinion entered this date,
IT IS ORDERED that Defendants’ motion for
summary judgment (ECF No. 158) is GRANTED IN
PART as to Count V of the First Amended Complaint.
The remainder of the motion is DENIED as stated in
the Court order of January 11, 2018 (ECF No. 165).
IT IS FURTHER ORDERED that the Clerk of the
Court shall unseal the document filed at ECF No. 48-1
in Case No. 5:03-cv-127.

App. 106
Dated: March 26, 2018
/s/ Robert J. Jonker
ROBERT J. JONKER
CHIEF UNITED STATES DISTRICT JUDGE

App. 107

APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
File No. 5:03-CV-127
HON. ROBERT J. JONKER
[Filed August 18, 2017]
__________________________
U.S. FILTER/JWI, INC.,
)
)
Plaintiff,
)
)
v.
)
)
J-PARTS, LLC et al.,
)
)
Defendants.
)
__________________________ )
File No. 1:16-CV-14
HON. ROBERT J. JONKER
__________________________
EVOQUA WATER
)
TECHNOLOGIES LLC,
)
)
Plaintiff,
)
)
v.
)
)
M.W. WATERMARK,
)

App. 108
LLC et al.,

)
)
Defendants.
)
__________________________ )
OPINION
In 2003, U.S. Filter/JWI, Inc. sued one of its
competitors, J-Parts, LLC, and J-Parts’ owner, Michael
Gethin (File No. 5:03-CV-127). U.S. Filter claimed that
Gethin and J-Parts had misused U.S. Filter’s
trademarks and proprietary information. J-Parts
subsequently changed its name to M.W. Watermark,
LLC, and the parties eventually settled the case. As
part of the settlement, the parties agreed to the entry
of a judgment and permanent injunction prohibiting
Gethin and Watermark from using certain trademarks
and proprietary information belonging to U.S. Filter.
(See Final J. & Permanent Inj., No. 5:03-CV-127, ECF
No. 24.)
Thirteen years later, Evoqua Water Technologies
LLC filed a new suit against Gethin and Watermark
(File No. 1:16-CV-14), claiming that Evoqua is the
successor-in-interest to U.S. Filter, and alleging that
Watermark and Gethin were in violation of the
permanent injunction. Among other things, Evoqua
asked for civil contempt sanctions against Watermark
and Gethin. The Court held a hearing in the new case
and found that Watermark and Gethin had violated the
terms of the injunction. As part of its civil contempt
sanction, the Court directed Watermark and Gethin to
pay Evoqua’s reasonable attorney’s fees for bringing
the new lawsuit and its motion for sanctions. No party
at the time questioned whether a proceeding for

App. 109
contempt properly belonged in a new case with a new
party plaintiff, or whether a proceeding in the original
action with the original plaintiff was necessary.
Watermark subsequently asked the Court to modify
or dissolve the permanent injunction, and Evoqua
sought to substitute itself as the plaintiff in 5:03-CV127. In response to Evoqua’s motion, Watermark
disputed Evoqua’s contention that Evoqua is the
successor-in-interest to U.S. Filter, an issue that it first
raised in its answer to Evoqua’s complaint but did not
litigate in response to Evoqua’s request for sanctions.
The Court denied both motions without prejudice
because it wanted to ensure that all interested parties
were before the Court. The Court asked the parties to
provide further briefing on whether Evoqua is, in fact,
the successor-in-interest to U.S. Filter. After the
parties did so, it became clear that Evoqua claims to be
the successor-in-interest to U.S. Filter based on a
series of corporate mergers and an assignment of
assets.1
The Court then asked the parties to brief the
following questions: (1) whether the consent judgment
is assignable; (2) whether the consent judgment was
actually assigned; and (3) whether the contempt
finding should be vacated if there was no effective

1

U.S. Filter merged into Siemens Water Technology Corporation,
which merged into Siemens Water Technology Holding
Corporation, which merged into Siemens Industries, Inc. In 2013,
Siemens Industries assigned the assets of its water-technologies
business unit to Siemens Water Technologies LLC, which changed
its name to Evoqua Water Technologies LLC, the plaintiff in 1:16CV-14.

App. 110
assignment. The parties have filed their briefs in
response to the Court’s order. They have also filed
motions asking the Court to seal certain portions of
their briefs and exhibits thereto. (No. 5:03-CV-127,
ECF Nos. 46, 51, 55.)
Upon review, the Court finds that the consent
judgment may not be enforced by Evoqua as an
assignee of U.S. Filter. Consequently, the contempt
finding in 1:16-CV-14 must be vacated because Evoqua
lacks standing to enforce the injunction. In addition,
the motions to seal will be granted in part and denied
in part.
I. Evoqua’s Right to Enforce the Consent
Judgment
A party’s ability to enforce a consent judgment
raises an issue of standing. “[A] well-settled line of
authority . . . establishes that a consent decree is not
enforceable directly or in collateral proceedings by
those who are not parties to it even though they were
intended to be benefit[t]ed by it.” Blue Chip Stamps v.
Manor Drug Stores, 421 U.S. 723, 750 (1975).
Generally, “third parties, even intended third-party
beneficiaries, lack standing to enforce their
interpretations of agreed judgments.” Sanders v.
Republic Servs. of Ky., LLC, 113 F. App’x 648, 650 (6th
Cir. 2004).
To determine whether a consent judgment can be
enforced by an assignee of one of the parties, the Court
looks to the language of the consent judgment itself. “A
consent judgment is a hybrid of a contract and a
judicial act.” Universal Settlements Int’l, Inv. v. Nat’l

App. 111
Viatical, Inc., 568 F. App’x 398, 404 (6th Cir. 2014)
(citing Local No. 93, Int’l. Ass’n of Firefighters,
AFL–CIO C.L.C. v. City of Cleveland, 478 U.S. 501, 519
(1986)). “It mirrors a contract in that it reflects ‘an
agreement by the parties,’ and it is a judicial act
because it ‘places the power and prestige of the court
behind the compromise struck by the parties.’” Id.
(quoting Williams v. Vukovich, 720 F.2d 909, 920 (6th
Cir. 1983)). “As a judicial act, consent judgments must
be ‘strictly construed to preserve the bargained for
position of the parties.’” Id. (quoting Williams, 720 F.2d
at 920).
Consent decrees are entered into by parties to a
case after careful negotiation has produced
agreement on their precise terms. The parties
waive their right to litigate the issues involved
in the case and thus save themselves the time,
expense, and inevitable risk of litigation.
Naturally, the agreement reached normally
embodies a compromise; in exchange for the
saving of cost and elimination of risk, the parties
each give up something they might have won
had they proceeded with the litigation. Thus the
decree itself cannot be said to have a purpose;
rather the parties have purposes, generally
opposed to each other, and the resultant decree
embodies as much of those opposing purposes as
the respective parties have the bargaining power
and skill to achieve. For these reasons, the scope
of a consent decree must be discerned within its
four corners, and not by reference to what might
satisfy the purposes of one of the parties to it.

App. 112
United States v. Armour & Co., 402 U.S. 673, 681
(1971) (emphasis added; footnote omitted); accord Shy
v. Navistar Int’l Corp., 701 F.3d 523, 530 (6th Cir.
2012).
The consent judgment in this case does not provide
for enforcement by an assignee of U.S. Filter. It binds
the “successors and assigns” of Watermark and Gethin
(No. 5:03-CV-127, ECF No. 24, PageID.356), but
includes no similar language pertaining to U.S. Filter.
The judgment itself is in favor of only U.S. Filter, not
its successors and assigns.
In a similar case, the Federal Circuit held that an
assignee of a party to a consent judgment could not
enforce it because “nothing expressly set out in the
consent judgment . . . extend[ed] [those enforcement]
rights to any third party[.]” Thatcher v. Kohl’s Dep’t
Stores, Inc., 397 F.3d 1370, 1375 (Fed. Cir. 2005). As in
this case, the consent judgment in Thatcher resulted
from the settlement of claims regarding the
infringement of intellectual-property rights. Like
Evoqua, the party seeking to enforce the consent
judgment in Thatcher claimed to acquire those
intellectual-property rights by assignment. Id. at 1373.
And like the consent judgment in this case, the consent
judgment in Thatcher enjoined the “successors-ininterest” of one party, but said nothing about whether
successors-in-interest of the other party could enforce
it. Id. at 1375. “This silence,” the court held, “is the
functional equivalent of the parties’ express intent to
exclude language of assignment.” Id. Likewise, this
Court interprets the absence of any reference to the
successors and assigns of U.S. Filter in the consent

App. 113
judgment, coupled with express language binding
Watermark’s successors and assigns, as precluding
enforcement by Evoqua, an assignee of U.S. Filter. The
enforcement rights of the consent judgment belong to
U.S. Filter alone.
Evoqua points to the settlement agreement between
U.S. Filter and Watermark, which states that “[t]he
terms of this Agreement shall be binding upon and
inure to the benefit of the Parties and their respective
heirs and assigns.” (Settlement Agreement, No. 1:16CV-14, ECF No. 1-8, PageID.365.) However,
“Agreement” is defined as “This Settlement Agreement
and Mutual Release.” (Id.) It does not include the
consent judgment itself. Indeed, the settlement
agreement requires the parties to stipulate to entry of
a judgment and permanent injunction “in the form
attached to this Agreement,” which necessarily means
that the consent judgment is separate from the
settlement agreement. (Id. at PageID.362 (emphasis
added).) Moreover, the consent judgment does not refer
to, or incorporate, the terms of the settlement
agreement. Thus, unlike the settlement agreement, the
consent judgment does not “inure to the benefit” of U.S.
Filter’s successors and assigns. The parties could have
included such language in the consent judgment, but
they did not do so. The Court will give effect to the
consent judgment as it is written.
Evoqua also relies on Rule 25(c), which provides
that the Court may substitute a party to whom “an
interest is transferred” for the original party in the
case. Fed. R. Civ. P. 25(c). Evoqua claims that it is the
recipient of an interest from U.S. Filter and should be

App. 114
substituted for U.S. Filter in 5:03-CV-127 so that it can
enforce the permanent injunction. As Evoqua itself
recognizes, however, Rule 25(c) “is merely a procedural
device designed to facilitate the conduct of the case, [it]
does not alter the substantive rights of the parties or
the transferee.” (Evoqua’s Br. 11, No. 5:03-CV-127,
ECF No. 48.) See 7C Charles Alan Wright et al.,
Federal Practice and Procedure § 1952 (3d ed. 2017
supp.) (“Rule 25 is procedural. It does not provide for
the survival of rights or liabilities but merely describes
the method by which the original action may proceed if
the right of action survives.”). Thus, Rule 25(c) does not
determine whether Evoqua can enforce the consent
judgment.
Evoqua compares this case to a situation in which
a plaintiff in a pending case transfers all of its assets to
a third party, and then the third party substitutes
itself as the plaintiff and receives the benefit of an
existing preliminary injunction. See Lucero v. Trosch,
121 F.3d 591, 596 (11th Cir. 1997). But the analogy is
not apt. The difference here is that the parties in 5:03CV-127 entered into an agreement to resolve their
claims. The agreement included entry of a consent
judgment and injunction extending to the successors
and assigns of Watermark but not U.S. Filter. Perhaps
if the original case was still open and unresolved,
Evoqua could substitute itself for U.S. Filter and then
determine how best to resolve the matter, consistent
with Lucero. But here, U.S. Filter and Watermark
resolved the case long ago. Evoqua cannot now insert
itself as a party to the consent judgment, or expand the
scope of the agreed-upon judgment to give itself
enforcement rights.

App. 115
Evoqua complains that the result in Thatcher forces
parties who want to transfer enforcement rights under
a consent decree to use a statutory merger rather than
a sale of assets even if there are other good
transactional reasons favoring a sale of assets. But
even assuming this is a shared concern of the parties,2
it is easily addressed by the language of the consent
judgment itself. The parties can simply draft a consent
decree that expressly applies to the successors and
assigns of all parties. Nothing in Thatcher would
prevent enforcement by a true assignee in that case.
Because Evoqua lacks standing to enforce the U.S.
Filter consent judgment, the Court must vacate the
order that granted Evoqua’s motion for sanctions and
found Watermark and Gethin in contempt of court.
Because it lacks standing, Evoqua was not entitled to
seek sanctions for violating the permanent injunction.
For the same reason, the Court must dismiss Count I
of Evoqua’s complaint in 1:16-CV-14, which seeks relief
based on the permanent injunction. This does not mean
that Evoqua lacks standing to enforce the settlement
agreement itself, which may or may not provide a
contractual basis for relief independent of the consent
judgment, assuming Evoqua can establish it is an
assignee of the agreement. Furthermore, this does not
prevent Evoqua from enforcing any intellectual2

The party restrained by the injunction would likely be more
inclined to impose limits on who can enforce the injunction, and
might try to negotiate a judgment that limited enforcement to the
original plaintiff. After all, a restrained party has no control over
who the original party selects as an assignee, and the restrained
party may be substantially more burdened by enforcement by an
assignee than by the original plaintiff.

App. 116
property rights that it obtained from U.S. Filter, in an
appropriate cause of action. It simply means that
Evoqua cannot pursue a claim for an alleged violation
of the permanent injunction entered in favor of U.S.
Filter.
Another consequence is that there is no reason or
basis for the Court to substitute Evoqua as the plaintiff
in 5:03-CV-127. That case is closed because of a
settlement and consent judgment. Evoqua lacks
standing to enforce the consent judgment. It may seek
to enforce the settlement agreement itself as a breach
of contract, but substituting Evoqua as the plaintiff in
the original case would serve no purpose.
II. Motions to Seal
Evoqua and Watermark ask the Court to seal the
settlement agreement and the agreement assigning
assets from Siemens Industry to Siemens Water
Technologies (“Carve-Out Agreement”), as well as the
portions of their briefs that discuss these documents.
A document filed with the Court becomes a judicial
record. Pansy v. Stroudsburg, 23 F.3d 772, 781 (3d Cir.
1994). “When a district court relies upon a document ‘in
determining the litigants’ substantive rights, and in
performing its adjudicatory function . . . [t]he common
law presumption of public access’ attaches to the
document.” Picard Chem. Inc. Profit Sharing Plan v.
Perrigo Co., 951 F. Supp. 679, 690 (W.D. Mich. 1996)
(quoting Joy v. North, 692 F.2d 880, 893 (2d Cir. 1982)
(alteration in original)). A court’s decision to seal a
record is governed by a balancing test that generally
favors public availability. See In re Knoxville News-

App. 117
Sentinel Co., 723 F.2d 470, 476 (6th Cir. 1983) (holding
that only the most compelling reasons justify
nondisclosure of judicial records).
To determine whether a party has overcome the
presumption of access, the Court balances the public’s
interest against the interest in confidentiality. Picard,
951 F. Supp. at 691 (citing Matter of Continental, 732
F.2d 1302, 1313 (7th Cir. 1984)). The “preference for
public access is rooted in the public’s first amendment
right to know about the administration of justice.” Id.
(quoting In re Orion Pictures Corp., 21 F.3d 24, 26 (2d
Cir. 1994)). Public access “helps safeguard ‘the
integrity, quality and respect in our judicial system’
and permits the public to ‘keep a watchful eye on the
workings of public agencies.’” Id. (quoting Orion, 21
F.3d at 26). “The public’s focus is not only on the
litigation’s result, but ‘also on the conduct giving rise to
the case,’ and in both circumstances, ‘the public is
entitled to assess for itself the merits of judicial
decisions.’” Rudd Equip. Co., Inc. v. John Deere Constr.
& Forestry Co., 834 F.3d 589, 593 (6th Cir. 2016)
(quoting Shane Grp., Inc. v. Blue Cross Blue Shield of
Mich., 825 F.3d 299, 305 (6th Cir. 2016)).
A. Settlement Agreement
Evoqua argues that the Court should seal the
settlement agreement, and any references to it in the
parties’ briefs, because there is no tradition of public
access to settlement negotiations. See In re Cincinnati
Enquirer, 94 F.3d 198, 199 (6th Cir. 1996). However,
“there is an important distinction . . . between
negotiating a settlement in the first instance and using
court resources to implement a settlement that has

App. 118
already been agreed to.” In re S. Ohio Corr. Facility, 24
F. App’x 520, 530 (6th Cir. 2001). The presumption of
access applies where, as here, a party is using the
terms of the settlement agreement in support of its
right to relief. Id. The public has a right to know the
basis for the parties’ arguments, and for the Court’s
decision on Evoqua’s right to enforce the consent
judgment. Thus, the parties have not satisfied their
burden of demonstrating that the settlement
agreement, or the portions of their briefs concerning
that agreement, should be sealed.
B. Carve-Out Agreement
Evoqua also argues that the Carve-Out Agreement,
and the references to that agreement in its brief,
should be sealed from public view because the
agreement implicates the privacy rights of a third
party, Siemens Industry. The parties to that agreement
agreed to keep its terms confidential.
The Court will grant the motion to seal insofar as it
concerns the Carve-Out Agreement itself because that
agreement is not material to the Court’s decision
regarding Evoqua’s right to enforce the consent
judgment. The basis for the Court’s ruling on standing
does not depend in any way on the Carve-Out
Agreement. However, the Court will not grant the
request to seal insofar as it concerns the portions of the
parties’ briefs that mention the Carve-Out Agreement.3

3

If Evoqua attempts to enforce the settlement agreement itself, it
will have to establish that it is the assignee of the agreement. That
argument will necessarily require an analysis of the terms of the

App. 119
The parties quote a handful of provisions in the CarveOut Agreement containing generic terms regarding the
assignment of assets from Siemens Industry to
Siemens Water Technologies. None of these provisions
reveals any significant details about the agreement
itself or the parties to it. Thus, the parties have not
demonstrated that revealing any portion of their briefs
will meaningfully implicate the privacy interests of
Siemens Industry, let alone that such interests
overcome the presumption in favor of public access to
their arguments to this Court.
An order will enter in accordance with this Opinion.
Dated: August 18, 2017
/s/ Robert J. Jonker
ROBERT J. JONKER
CHIEF UNITED STATES DISTRICT JUDGE

Carve-Out Agreement. The Court will not be able to seal the
Carve-Out Agreement if called upon to determine what it means.

App. 120
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
File No. 5:03-CV-127
HON. ROBERT J. JONKER
[Filed August 18, 2017]
__________________________
U.S. FILTER/JWI, INC.,
)
)
Plaintiff,
)
)
v.
)
)
J-PARTS, LLC et al.,
)
)
Defendants.
)
__________________________ )
File No. 1:16-CV-14
HON. ROBERT J. JONKER
__________________________
EVOQUA WATER
)
TECHNOLOGIES LLC,
)
)
Plaintiff,
)
)
v.
)
)
M.W. WATERMARK,
)
LLC et al.,
)
)
Defendants.
)
__________________________ )

App. 121
ORDER
In accordance with the Opinion entered this date,
IT IS ORDERED that Evoqua’s motion to file its
unredacted supplemental brief and Exhibit A thereto
under seal (File No. 5:03-CV-127, ECF No. 46) is
GRANTED IN PART and DENIED IN PART. The
Clerk’s office is directed to unseal the unredacted brief
(ECF No. 48), but the exhibit attached to it (ECF No.
48-1) shall remain under seal.
IT IS FURTHER ORDERED that the parties’
motions to file their unredacted response briefs under
seal (File No. 5:03-CV-127, ECF Nos. 51, 55) are
DENIED. The Clerk’s office is directed to unseal these
briefs (ECF Nos. 52, 57).
IT IS FURTHER ORDERED that the Court’s
order striking and sealing the settlement agreement
attached to Evoqua’s complaint (File No. 1:16-CV-14,
ECF No. 5) is VACATED. The Clerk’s office is directed
to unseal the settlement agreement (File No. 1:16-CV14, ECF No. 1-8).
IT IS FURTHER ORDERED that the Court’s
opinion and order granting Evoqua’s motion for
sanctions (File No. 1:16-CV-14, ECF Nos. 47, 48) are
VACATED and Count I of Evoqua’s complaint in 1:16CV-14 is DISMISSED because Evoqua lacks standing
to enforce the judgment in 5:03-CV-127.
IT IS FURTHER ORDERED that Watermark’s
objection to Evoqua’s affidavit for attorney’s fees (File
No. 1:16-CV-14, ECF No. 71) is DENIED as moot.

App. 122
Dated: August 18, 2017
/s/ Robert J. Jonker
ROBERT J. JONKER
CHIEF UNITED STATES DISTRICT JUDGE

App. 123

APPENDIX F
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Case No.: 5:03-cv-127
Hon. David W. McKeague
[Filed December 22, 2003]
_____________________________
U.S. FILTER/JWI, INC.,
)
a Michigan corporation,
)
Plaintiff,
)
)
-vs)
)
J-PARTS, L.L.C., a Michigan
)
limited liability company,
)
and MICHAEL GETHIN,
)
an individual
)
)
Defendants.
)
_____________________________ )
FINAL JUDGMENT INCLUDING PERMANENT
INJUNCTION
The parties to this action having stipulated to the
entry of this Final Judgment Including Permanent
Injunction, as evidenced by the signatures of their
respective attorneys, below, and the Court being fully
advised in the premises,

App. 124
It is hereby ORDERED AND ADJUDGED that
Defendants J-Parts, L.L.C., now known as M.W.
Watermark LLC, and Michael Gethin and its, his or
their principals, agents, servants, employees,
attorneys, successors and assigns, and any person(s) or
entities acting or who have acted in concert or
participation with one or more of such persons
(“Defendants”) are ENJOINED, permanently, as
follows:
1. Defendants are ENJOINED, permanently, from
using Plaintiff U.S. Filter/JWI, Inc.’s (“USF/JWI’s”)
trademarks J-PRESS®, J-MATE®, and J-VAP®
(“USF/JWI’s Trademarks”) and colorable imitations
thereof and any other designs, designations or indicia
in a manner that is likely to cause confusion, mistake
or deception with respect to USF/JWI’s trademark
rights. By way of example, but not limitation,
Defendants are ENJOINED from using:
A. The name “J-Parts” and any other name
incorporating the prefix “J-” , except pursuant to a
fair use thereof, e.g., identifying genuine USF/JWI
goods;
B. The telephone number 888-J-PARTS-4 (888572-7874) and any other telephone number
promoting the characters “J-Parts” or “Jparts”;
C. T h e
Internet
domain
name
“www.jpartsllc.com” and any other domain name
likely to cause confusion, mistake or deception with
respect to USF/JWI’s trademark rights, including
any domain name incorporating USF/JWI’s
Trademarks, “J-,” J-Parts L.L.C., or ‘’jparts”; by way

App. 125
of example but not limitation, the injunction
provided for herein prohibits Defendants’ use of
such terms in metatags for any web site that any
one or more of them may use in connection with the
business of selling spare parts for dewatering
equipment.
2. Defendants are ENJOINED, permanently, from
using, disclosing, or disseminating any USF/JWI
Proprietary Information. For purposes of this
Injunction, the term “USF/JWI Proprietary
Information” means USF/JWI information not
generally available to the public that relates to the
business or activities of, or belongs to, or is controlled
or possessed by USF/JWI. The USF/JWI Proprietary
Information includes, without limitation, information
obtained by Defendants from USF /JWI’ s Enterprise
Resource Planning (“ERP”) System, serial histories,
reports, analyses, financial information, plans,
proposals, processes, sketches, photographs, graphs,
software, databases (including, customer relationship
management databases), drawings, specifications,
equipment, samples, customer lists, supplier and
vendor lists, contact lists, and information relating to
costs, pricing, profits, markets, sales, products, market
studies and forecasts, pricing policies and data, sales
plans, customers and customer prospects,
opportunities, and buying patterns, business plans,
competitive analyses, agreements with customers,
suppliers, vendors, and others, marketing and
dealership agreements, and servicing and training
programs and arrangements.

App. 126
It is FURTHER ORDERED AND ADJUDGED that,
to the extent they have not previously done so,
Defendants shall destroy any and all articles, signs,
displays, business cards, stationery, and all other types
of advertising or promotional materials that contain
USF/JWI’s Trademarks, “J-Parts,” J-Parts L.L.C.,
“jparts,” or any other term incorporating the prefix “J-.”
It is FURTHER ORDERED AND ADJUDGED that,
to the extent they have not previously done so,
Defendants shall, within five days of the entry of this
Final Judgment Including Permanent Injunction,
deliver to USF/JWI or its attorneys, any and all
Documents, software, data files, compilations, or other
things in the possession, custody or control of any one
or more of them, and any Document, record or other
thing derived therefrom, including all originals,
modifications, and identical and non-identical copies
thereof, which contain, embody, or reflect, in whole or
in part, any USF/JWI Proprietary Information, as
defined above. For purposes of this Injunction,
“Document” shall mean any written, recorded, printed,
typewritten or handwritten matter of any kind or
nature, however produced, reproduced or recorded.
It is FURTHER ORDERED AND ADJUDGED that
Plaintiff USF/JWI’s Complaint, Defendants’
Counterclaim, and any and all claims asserted in such
Complaint and Counterclaim hereby are dismissed,
with prejudice, each party to bear its or his own costs
and attorneys fees.

App. 127
It is SO ORDERED AND ADJUDGED this 22 day
of December, 2003.
/s/ David W. McKeague
DAVID W. MCKEAGUE
UNITED STATES DISTRICT JUDGE
We hereby stipulate to the entry of the above Final
Judgment Including Permanent Injunction this 16th
day of December, 2003.
/s/Robert J. Franzinger
Robert J. Franzinger (P25539)
Attorney for Plaintiff
/s/G. Thomas Williams
G. Thomas Williams (P53734)
Attorney for Defendants

App. 128

APPENDIX G
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Nos. 18-2397/2398
[Filed November 21, 2019]
_________________________________________
EVOQUA WATER TECHNOLOGIES, LLC, )
)
Plaintiff-Appellant/Cross-Appellee,
)
)
v.
)
)
M.W. WATERMARK, LLC; MICHAEL
)
GETHIN, INDIVIDUALLY,
)
)
Defendants-Appellees/Cross-Appellants. )
_________________________________________ )
ORDER
BEFORE: WHITE, BUSH, and LARSEN, Circuit
Judges.
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the cases. The petition then
was circulated to the full court. No judge has requested
a vote on the suggestion for rehearing en banc.

App. 129
Therefore, the petition is denied.
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

